<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    [Clerk's note.--The subcommittee was unable to hold 
hearings on departmental and nondepartmental witnesses. The 
statements and letters of those submitting written testimony 
are as follows:]

                         DEPARTMENTAL WITNESSES

         Prepared Statement of the Government Publishing Office
    Madam Chairman, Ranking Member Murphy, and Members of the 
subcommittee, I am pleased to offer this testimony in support of the 
appropriations request for the U.S. Government Publishing Office (GPO) 
for fiscal year 2020.

                 THE U.S. GOVERNMENT PUBLISHING OFFICE

    The U.S. Government Publishing Office (GPO), a legislative branch 
agency, is the OFFICIAL, DIGITAL, SECURE resource for producing, 
procuring, cataloging, indexing, authenticating, disseminating, and 
preserving the official information products of the Federal Government.
    Under Title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Government, including the official publications of 
Congress and the White House, U.S. passports for the Department of 
State, and the official publications of other Federal agencies and the 
courts. Once primarily a printing operation, we are now an integrated 
publishing operation and carry out our mission using an expanding range 
of digital as well as conventional formats. In 2014, Congress and the 
President recognized this change in Public Law 113-235, which contains 
a provision re-designating GPO's official name as the Government 
Publishing Office. As of September 30, 2018, GPO employed 1,737 staff.
    Along with sales of publications in digital and tangible formats to 
the public, we support openness and transparency in Government by 
providing permanent public access to Federal Government information at 
no charge through govinfo (www.govinfo.gov), the successor system to 
the Federal Digital System (FDsys), which was retired in December 2018. 
Today, GPO makes more than 2.5 million Federal titles available from 
our servers and through links to other agencies and institutions, and 
govinfo, together with its predecessor site FDsys, averaged 
approximately 31 million retrievals per month in fiscal year 2018. GPO 
also provides public access to Government information through 
partnerships with 1,125 Federal, academic, public, law, and other 
libraries nationwide participating in the Federal Depository Library 
Program (FDLP).
    In addition to our newly redesigned website, gpo.gov, we 
communicate with the public routinely via Facebook facebook.com/USGPO, 
Twitter twitter.com/USGPO, YouTube youtube.com/user/gpoprinter, 
Instagram instagram.com/usgpo, LinkedIn linkedin.com/company/u.s.-
government-printing-office, and Pinterest pinterest.com/usgpo/.
                                history
    From the Mayflower Compact to the Declaration of Independence and 
the papers leading to the creation and ratification of the 
Constitution, America is a nation based on documents, and our 
governmental tradition since then has reflected that fact. Article I, 
section 5 of the Constitution requires that ``each House shall keep a 
journal of its proceedings and from time to time publish the same,'' 
establishing Congress's informing mission that GPO carries out. After 
years of struggling with various systems of contracting for printed 
documents that were beset with scandal and corruption, in 1860 Congress 
created the Government Printing Office as its official printer. GPO 
first opened its doors for business on March 4, 1861, the same day 
Abraham Lincoln was inaugurated as our 16th President. Since that time, 
GPO has produced and distributed the official version of every great 
American state paper and an uncounted number of other Government 
publications, documents, and forms. These documents include the 
Emancipation Proclamation, the legislative publications and acts of 
Congress, Social Security cards, Medicare and Medicaid information, 
census forms, tax forms, citizenship forms, passports, military 
histories ranging from the Official Records of the War of the Rebellion 
to the latest accounts of our forces in Afghanistan, the 9/11 
Commission Report, Presidential inaugural addresses, and Supreme Court 
opinions. This work goes on today, in digital as well as print formats.
                            strategic vision
    GPO is transforming itself from a print-centric to a content-
centric publishing operation. This process is consistent with the 
recommendations submitted by the National Academy of Public 
Administration to Congress (Rebooting the Government Printing Office: 
Keeping America Informed in the Digital Age, January 2013) regarding 
our transition to a digital future.
    GPO continues to develop an integrated, diversified product and 
services portfolio that focuses primarily on digital to serve the 
Government information needs of Congress, Federal agencies, and the 
public. At the same time, we recognize that some tangible print will 
continue to be required because of official use, archival purposes, 
authenticity, specific industry requirements, and segments of the 
population that either have limited or no access to digital formats, 
though its use will continue to decline relative to the continued 
growth in the provision of and access to digital formats.

                            GPO AND CONGRESS

    For the Clerk of the House, the Secretary of the Senate, and the 
committees of the House and the Senate, GPO publishes the documents and 
publications required by the legislative and oversight processes of 
Congress in digital and tangible formats. This includes the daily 
Congressional Record, bills, reports, legislative calendars, hearings, 
committee prints, and documents, as well as stationery, franked 
envelopes, memorials and condolence books, programs and invitations, 
phone books, and the other products needed to conduct the business of 
Congress. We produce all the printing work required every 4 years by 
the Joint Congressional Committee on Inaugural Ceremonies. We also 
detail expert staff to support the publishing requirements of House and 
Senate committees and congressional offices such as the House and 
Senate Offices of Legislative Counsel. We work with Congress to ensure 
the provision of these services under any circumstances, including 
emergency weather and other conditions.
    Today the activities associated with creating congressional 
information datasets comprise the majority of the work funded by GPO's 
annual Congressional Publishing Appropriation. Our advanced digital 
authentication system, supported by public key infrastructure (PKI), is 
an essential component for assuring the digital security of 
congressional publications. The datasets we create are made available 
to provide access to congressional publications in digital formats as 
well as to support their production in tangible formats.
    GPO's congressional information datasets also form the building 
blocks of other information systems supporting Congress. For example, 
they are provided to the Library of Congress to support its 
Congress.gov system as well as the legislative information systems the 
Library makes available to House and Senate offices. GPO also works 
with the Library to make House and Senate bill summary and status 
information in XML bulk data format on govinfo.
    In addition, GPO works with the Library on a variety of digital 
projects supporting Congress to make congressional information more 
widely available, including the digitization of historical issues of 
the Congressional Record. In 2018, GPO completed the project to 
digitize the Congressional Record back to the first issue from March 4, 
1873, which opens with a proclamation by President Ulysses S. Grant 
formally convening a special session of the United States Senate. That 
issue, and every subsequent issue, is now available free of charge to 
the public on GPO's govinfo website. With the completion of this 
important digitization project, GPO has now moved on to the 
digitization of other historical congressional documents, beginning 
with hearings.
                gpo cuts the cost of congressional work
    GPO's use of electronic information technologies has been the 
principal contributor to lowering the cost, in real economic terms, of 
congressional information products. In fiscal year 1980, as GPO 
replaced hot metal typesetting with electronic photocomposition, the 
appropriation for Congressional Publishing was $91.6 million, the 
equivalent in today's dollars of $285.4 million. By comparison, our 
approved funding for fiscal year 2019 was $79.0 million, a reduction of 
more than 73 percent in constant dollar terms.
    Since 2010, we have achieved a 26 percent reduction in the constant 
dollar value of the Congressional Publishing Appropriation, consistent 
with the continuing transformation of our technology profile, the 
control of costs, and collaboration with Congress in carrying out 
measures reducing print distribution in meeting the information needs 
of the Senate and House of Representatives. Annual appropriations for 
Congressional Publishing have been at or below $79.7 million in each 
year fiscal year 2014-18.
    Productivity increases resulting from technology have enabled us to 
make substantial reductions in our staffing requirements while 
continuing to improve services for Congress. In 1980, total GPO 
employment was 6,450. At the end of fiscal year 2018, we had 1,737 
employees on board, representing a reduction of 4,713, or more than 73 
percent, since 1980. Our workforce levels over the past 3 years remain 
the smallest of any time in the past century.

                        GPO AND FEDERAL AGENCIES

    Federal agencies are major generators of information in the United 
States, and GPO produces their information products for official use 
and public access. Federal agencies and the public also rely on a 
growing variety of secure credentials that we produce, including 
travelers holding U.S. passports, members of the public who cross our 
borders frequently, and other users. Our digital systems support key 
Federal agency publications, including the annual Budget of the U.S. 
Government and, most importantly, the Federal Register and associated 
products. As it does for congressional documents, our digital 
authentication system, supported by public key infrastructure (PKI), 
assures the digital security of agency documents.
    In fiscal year 2018, GPO was proud to complete a project, 
undertaken in collaboration with Office of the Federal Register (OFR), 
to digitize and make available every issue of the Federal Register, 
dating back to its inception in 1936, for free on GPO's govinfo 
website. This exercise required the digitization of more than 14,587 
individual issues containing more than two million pages. The first 
issue of the Federal Register, dated March 16, 1936, featured an 
executive order of President Franklin Delano Roosevelt that expanded 
the boundaries of a bird refuge in South Carolina.
    GPO's partnership with the National Archives and Records 
Administration (NARA) was further expanded in fiscal year 2018, with 
the completion of construction of an approximately 25,000 square foot 
space within GPO's Building A to serve as Phase I of NARA's Center for 
Legislative Archives. NARA is expected to begin moving its legislative 
archives material into the facility in early 2019, and GPO will 
continue to work with NARA on the development of Phase II, which will 
provide additional archival space within GPO's Building D. This work 
follows GPO's successful renovation of 17,000 square feet of space on 
the seventh floor of GPO's Building A to house the OFR and the Office 
of Government Information Services (OGIS).
    Another promising potential collaboration for GPO is its recent 
work with the Architect of the Capitol (AOC) and the Library of 
Congress' National Library Service for the Blind and Physically 
Handicapped (NLS) to determine if space within GPO's main facilities 
can be renovated to provide high-quality DC office space for the NLS. A 
study was recently completed to assess the feasibility of such a 
collaboration, and conversations between the three agencies are 
ongoing. GPO holds the NLS and its personnel in high regard and is 
committed to doing all it can to support this prospective partnership.
                       partnership with industry
    Other than congressional and inherently governmental work such as 
the Federal Register, the Budget, and security and intelligent 
documents, we produce virtually all other Federal agency information 
products via contracts with the private-sector printing and 
information-product industry. This work is administered through both 
our central office and regional offices throughout the country. In 
fiscal year 2018, this work was valued at approximately $375.7 million, 
and represented 84,111 orders. More than 10,000 individual firms are 
registered to do business with GPO, the vast majority of whom are small 
businesses averaging 20 employees per firm. Contracts are awarded on a 
purely competitive basis; there are no set-asides or preferences in 
contracting other than what is specified in law and regulation, 
including a Buy American requirement. This partnership provides 
significant economic opportunity for the private sector.
                   security and intelligent documents
    For nearly a century GPO has been responsible for producing the 
U.S. passport for the U.S. Department of State. At one time no more 
than a conventionally printed document, the U.S. passport since 2005 
has incorporated a digital chip and antenna array capable of carrying 
biometric identification data. With other security printing features, 
this document--which GPO produces in Washington, DC, as well as at a 
secure remote facility in Mississippi--is now the most secure 
identification credential obtainable. In fiscal year 2018 GPO produced 
16 million passports for the State Department, and has produced a total 
of more than 166 million passports the past 11 years. In fiscal year 
2020 and fiscal year 2021, GPO will continue to make investments needed 
to support the State Department's next generation passport program.
    This past year also marked the 10th anniversary of GPO's production 
of secure identification cards for Federal agencies. Since 2008, GPO 
has served as an integrator of secure identification smart cards to 
support the credentialing requirements of Federal agencies and other 
Government entities. To date, GPO has produced more than 21 million 
secure credential cards across 11 different product lines. Among them 
are the Trusted Traveler Program's (TTP) family of border crossing 
cards--NEXUS, SENTRI, FAST, and Global Entry--for the Department of 
Homeland Security (DHS), which are used by frequent travelers across 
U.S. borders. Another card produced for DHS is the Transportation 
Worker Identity Card (TWIC). In addition, GPO produces the secure law 
enforcement credentials for the U.S. Capitol Police that are used in 
Presidential inaugurations.

                  GPO AND OPEN, TRANSPARENT GOVERNMENT

    Producing and distributing the official publications and 
information products of the Government fulfills an informing role 
originally envisioned by the Founders, as James Madison once said:

        ``A popular Government without popular information, or the 
        means of acquiring it, is but a Prologue to a Farce or a 
        Tragedy, or perhaps both. Knowledge will forever govern 
        ignorance, and a people who mean to be their own Governors, 
        must arm themselves with the power which knowledge gives.''

    GPO operates a variety of programs that provide the public with 
``the means of acquiring'' Government information that Madison spoke 
of. These programs include the Federal Depository Library program 
(FDLP), govinfo, Publications Information Sales, Agency Distribution 
Services, and Social Media.
                   federal depository library program
    The FDLP has legislative antecedents that date to 1813 (3 Stat. 
140), when Congress first authorized congressional documents to be 
deposited at the American Antiquarian Society in Worcester, MA, for the 
use of the public. Since then, Federal depository libraries have served 
as critical links between ``We the People'' and the information made 
available by the Federal Government. GPO provides the libraries with 
information products in digital and, in some cases, tangible formats, 
and libraries in turn make them available to the public at no charge 
while providing additional assistance to depository library users.
    The FDLP today serves millions of Americans through a network of 
1,125 public, academic, law, and other libraries located across the 
Nation, averaging nearly three per congressional district. In fiscal 
year 2018, four libraries joined the FDLP: the College of Staten Island 
Library in New York, the Miles City Public Library in Montana, the Pope 
County Library in Arkansas, and the Loudon County Public Library in 
Virginia.
    Print and some microfiche products remain important depository 
library resources today, particularly in regional depository library 
collections nationwide, while the program has expanded significantly 
over the past 25 years to incorporate digital information products, and 
today is supported by govinfo along with other digital resources. The 
growing reliance on digital content was underscored by the first 
digital-only Federal depository library designation in 2014.
                                govinfo
    Under the provisions of Public Law 103-40, GPO has been providing 
online public access to Congressional and Federal agency publications 
since 1994, beginning with a site known as GPO Access. Fifteen years 
later, GPO Access was retired and a significantly re-engineered system 
debuted as GPO's Federal Digital System or FDsys. In early 2016, GPO 
unveiled the next generation of our public access system with the 
introduction of govinfo. Rolled out initially as a Beta, govinfo 
improved upon FDsys by providing a modern website that is aligned with 
the needs of today's Government information users for quick and 
effective online access across a variety of platforms.
    Following a period of iterative development and testing, the 
govinfo website was moved out of Beta in December 2017. Throughout 
2018, the FDsys and govinfo websites ran in parallel while GPO worked 
with key stakeholders to ensure a smooth transition to govinfo. In 
December 2018, the FDsys website was retired and replaced by the 
govinfo website. The govinfo website features a mobile-friendly design, 
current and historical content collections from all three branches, 
enhanced search and intuitive browse, linked related documents, curated 
feature articles, quick and easy social sharing, developer tools such 
as XML bulk data and a public API, expanded help information, support 
for redirects from millions of legacy FDsys links, and additional 
enhancements based on stakeholder feedback.
    Online access to Federal documents made available by GPO has 
reduced the cost of providing public access to Government information 
significantly when compared with print, while expanding public access 
dramatically through the Internet. In fiscal year 2018, govinfo grew to 
make more than 2.5 million titles from the legislative, executive, and 
judicial branches available online from our servers and through links 
to other agencies and institutions, and govinfo averaged approximately 
31 million retrievals per month.
    GPO has continually added content to govinfo to provide increased 
public access to Government information. In fiscal year 2018, notable 
new content included completing the digitized volumes of the bound 
Congressional Record back to 1873, completing the digitized issues of 
the Federal Register back to 1936, adding the digitized volumes of 
Kappler's Indian Affairs: Laws and Treaties, and making various Panama 
Canal related publications available on govinfo. An initial set of 
Statute Compilations, the Asian and Pacific Islander Americans in 
Congress, 1900-2017 eBook, and a new series of Precedents of the U.S. 
House of Representatives were also added to govinfo in fiscal year 2018 
along with numerous other Federal publications.
    During fiscal year 2018, the govinfo repository underwent an audit 
for certification as a Trustworthy Digital Repository in compliance 
with International Organization for Standardization (ISO) 16363. In 
December 2018, GPO made history by becoming the first organization in 
the United States and second organization in the world to achieve the 
highest global standard of excellence for digital repositories. GPO's 
govinfo was evaluated against 109 criteria covering all aspects of a 
digital repository including organizational infrastructure, digital 
object management, and infrastructure and security risk management. 
Certification provides assurance to GPO stakeholders that govinfo is a 
standards-compliant digital archive in which Government information is 
preserved, accessible, and usable now and into the future.
    In support of the Legislative Branch Bulk Data Task Force, 
throughout fiscal year 2018, GPO worked with the Clerk of the House and 
the Secretary of the Senate on initiatives to convert legacy file 
formats into United States Legislative Markup (USLM) XML. In early 
fiscal year 2019, the first project was completed with the release of a 
subset of enrolled bills, public and private laws, and Statutes at 
Large in Beta USLM XML on govinfo. USLM offers a standard XML schema to 
promote interoperability among documents as they flow through the 
legislative and regulatory processes. USLM also promotes international 
interoperability with documents produced by governments world-wide.
    GPO has also continued to invest in the IT infrastructure 
supporting GPO's digital information system. This includes bandwidth, 
storage, and servers needed for Production, COOP, Test, and Development 
environments.
               publication and information sales program
    Along with the FDLP and our online dissemination system, which are 
no-fee public access programs, GPO also provides access to official 
Federal information through public sales featuring secure ordering 
through an online bookstore (bookstore.gpo.gov), a bookstore at GPO 
headquarters in Washington, DC, and partnerships with the private 
sector that offer Federal publications as eBooks. As a one-stop shop 
for eBook design, conversion, and dissemination, our presence in the 
eBook market continues to grow. We now have agreements with Apple 
iTunes, Google Play, Barnes & Noble, OverDrive, Zinio, EBSCO, ProQuest 
and other online vendors to make popular Government titles such as Your 
Guide to Breastfeeding, My Future, My Way--First Steps Towards College, 
and Dietary Guidelines for Americans available as eBooks. We also offer 
a print-on-demand service for sales titles through Amazon and others, 
which enables us to offer more titles and avoid the expense of 
additional warehousing.
               agency distribution services (ads) program
    GPO operates two distribution facilities which are strategically 
located in Laurel, MD and Pueblo, CO. Through these facilities, GPO 
administers distribution programs for the information products of other 
Federal agencies. Today, over 55 Federal agencies utilize the 
comprehensive services provided through the Pueblo and Laurel 
facilities, which together offer more than 160,000 square feet of 
climate-controlled distribution, storage, and fulfillment space.
    Among the services provided through GPO's ADS program are website 
hosting, consulting services, fulfillment and distribution, address 
validation services, call center operations, and printing optimization, 
just to name of few. These services are all designed to help Federal 
agencies achieve savings in the distribution of their information 
products.
    The ADS program experienced significant growth in fiscal year 2018, 
with revenues climbing to nearly $13 million, up from $9.2 million in 
fiscal year 2017. Similarly, the total copies of agency materials 
distributed through the ADS program increased to 69.2 million in fiscal 
year 2018--an 11 million increase over the 58 million copies 
distributed in fiscal year 2017.
                          gpo and social media
    We use Facebook, Twitter, YouTube, Instagram, LinkedIn, Pinterest, 
and a blog to share information about GPO news and events, and to 
promote specific publications and products. By the end of 2018, we had 
9,828 likes on Facebook and 9,500 Twitter followers. On Instagram we 
had 819 followers and 1,699 posts and posted our first-ever Instagram 
Story. By the end of 2018, 1,100 people were subscribed to our YouTube 
channel, which has nearly 265,000 views across our 78 videos. On 
Pinterest, we had 899 followers pinning on 22 boards of Federal 
Government information. We had 3,498 followers on LinkedIn. Our blog, 
Government Book Talk, focuses on increasing the awareness of new and 
classic Federal publications through reviews and discussions.

                              GPO FINANCES

                   business operations revolving fund
    All GPO activities are financed through our Business Operations 
Revolving Fund, established by section 309 of Title 44, U.S.C. This 
business-like fund is used to pay all of our costs in performing 
congressional and agency publishing, information product procurement, 
and publications dissemination activities. It is reimbursed from 
payments from customer agencies, sales to the public, and transfers 
from our two annual appropriations: the Congressional Publishing 
Appropriation and the Public Information Programs of the Superintendent 
of Documents Appropriation.
                           retained earnings
    Under GPO's system of accrual accounting, annual earnings generated 
since the inception of the Business Operations Revolving Fund have been 
accumulated as retained earnings. Retained earnings make it possible 
for us to fund a significant amount of technology modernization. 
However, appropriations for essential investments in technology and 
plant upgrades are requested when necessary.
                           appropriated funds
    GPO's Congressional Publishing Appropriation is used to reimburse 
the Business Operations Revolving Fund for the costs of publishing the 
documents required for the use of Congress in digital and tangible 
formats, as authorized by the provisions of chapters 7 and 9 of Title 
44, U.S.C. The Public Information Programs of the Superintendent of 
Documents Appropriation is used to pay for the costs associated with 
providing online access to, and the distribution of, publications to 
Federal depository libraries, cataloging and indexing, statutory 
distribution, and international exchange distribution. The 
reimbursements from these appropriations are included in the Business 
Operations Revolving Fund as revenue for work performed. Congress has 
also, in years past, appropriated funds directly to the Business 
Operations Revolving Fund in support of specific capital investments. 
In recent years such appropriations have been provided in support of 
information technology and cybersecurity investments.
                        annual independent audit
    Each year, GPO's finances and financial controls are audited by an 
independent outside audit firm working under contract with GPO's Office 
of Inspector General. For fiscal year 2018, the audit concluded with 
GPO earning an unmodified, or clean, opinion on its finances, the 22nd 
consecutive year GPO has earned such an audit result.
                   fiscal year 2018 financial results
    Revenue totaled $874.5 million and resulted in a net income of 
$20.4 million, excluding income planned to be invested in passport-
related capital assets and funds resulting from a downward adjustment 
to GPO's long-term workers' compensation liability under the Federal 
Employees Compensation Act (FECA).
    Funds appropriated directly by Congress provided nearly $119.5 
million (including funds from the Congressional Publishing and Public 
Information Programs appropriations, along with appropriations to the 
Business Operations Revolving Fund), or about 13.7 percent of total 
revenue. All other GPO activities, including in-plant publishing (which 
includes the production of passports), procured work, sales of 
publications, agency distribution services, and all administrative 
support functions, were financed through the Business Operations 
Revolving Fund by revenues generated by payments from agencies and 
sales to the public.

                FISCAL YEAR 2020 APPROPRIATIONS REQUEST

    GPO is requesting a total of $117,000,000 for fiscal year 2020. 
This is the same level of funding GPO requested in fiscal year 2019, 
and the same amount appropriated in fiscal year 2019. Through fiscal 
year 2019, total GPO appropriations have declined by 21 percent since 
fiscal year 2010 and are currently at their lowest level since then.
    GPO's continued transition to digital technologies and products has 
increased our productivity and reduced costs. Additionally, maintaining 
financial controls on our overhead costs, coupled with a buyout in 
fiscal year 2015 that reduced GPO's workforce by 103 positions, has 
helped make this funding request possible. Finally, the utilization of 
the unexpended balances of prior year appropriations, which we are able 
to transfer to GPO's Business Operations Revolving Fund with the 
approval of the Appropriations Committees, has made it possible in 
recent years to hold the line on the level of new funding we request.


                       TOTAL APPROPRIATIONS TO GPO
           Fiscal Year 2010-2019 and Fiscal Year 2020 Request
------------------------------------------------------------------------
           Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010............................  $147,461,000
2011............................  $135,067,324
2012............................  $126,200,000
2013............................  $117,533,423
2014............................  $119,300,000
2015............................  $119,993,000
2016............................  $117,068,000
2017............................  $117,068,000
2018............................  $117,068,000
2019............................  $117,000,000
2020............................  $117,000,000 (Requested)
------------------------------------------------------------------------


    Our fiscal year 2020 request will enable us to:

  --meet projected requirements for congressional publishing;
  --fund the operation of the public information programs of the 
        Superintendent of Documents; and
  --develop information technology, including IT cybersecurity 
        measures, and perform facilities maintenance and repairs that 
        support our congressional publishing and public information 
        programs operations.
                 congressional publishing appropriation
    GPO is requesting $79,000,000 for this account. This is the same 
amount requested in GPO's fiscal year 2019 budget submission for the 
Congressional Publishing account, and the same amount Congress 
appropriated in fiscal year 2019.
    Overall, the annual appropriations for Congressional Publishing 
been flat since fiscal year 2014 and have declined by more than 15 
percent since fiscal year 2010 as the result of our continuing 
transition to digital technology and products, as well as actions taken 
in cooperation with the House of Representatives and the Senate to 
control congressional publishing costs. Unspent prior year balances 
from this account that have been transferred to GPO's Business 
Operations Revolving Fund are available for the purposes of this 
account.


                 CONGRESSIONAL PUBLISHING APPROPRIATION
           Fiscal Year 2010-2019 and Fiscal Year 2020 Request
------------------------------------------------------------------------
           Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010............................  $93,768,000
2011............................  $93,580,464
2012............................  $90,700,000
2013............................  $82,129,576
2014............................  $79,736,000
2015............................  $79,736,000
2016............................  $79,736,000
2017............................  $79,736,000
2018............................  $79,528,000
2019............................  $79,000,000
2020............................  $79,000,000 (Requested)
------------------------------------------------------------------------


    House Report 114-110, accompanying the Legislative Branch 
Appropriations bill for fiscal year 2016, requires the presentation of 
budget requirements from a zero base. However, GPO has no control over 
the workload requirements of the Congressional Publishing 
Appropriation. These are determined by the legislative activities and 
requirements of the House of Representatives and the Senate as 
authorized by the applicable provisions of Title 44, U.S.C. GPO 
utilizes historical data incorporating other relevant factors to 
develop estimates of likely congressional publishing requirements. 
These requirements are used as the basis of the budget presentation for 
this account.
    In GPO's fiscal year 2019 budget submission for the Congressional 
Publishing account, a non-recurring amount of $3.7 million was included 
to fund the production of the 2018 Edition of the U.S. Code, which is 
carried out every 6 years in accordance with law. While the fiscal year 
2020 request for the Congressional Publishing account excludes this 
item, all other congressional activity in 2020 is expected to exceed 
the fiscal year 2019 level by $2.8 million. In addition, price-level 
and wage increases (if implemented), are expected to increase expenses 
to the Congressional Publishing account by an additional $3.4 million. 
In order to accommodate these increases and hold the fiscal year 2020 
request for the Congressional Publishing account to $79,000,000, GPO 
plans to use about $2.0 million of prior-year transfers in GPO's 
Revolving Fund to support its Congressional Publishing work in fiscal 
year 2020.
    As shown on page D-4 of our budget justification for fiscal year 
2020, the unexpended balances of prior year appropriations that have 
been transferred to GPO's Business Operations Revolving Fund will be 
used to offset anticipated requirements for fiscal year 2020, so that 
appropriation requirements can remain stable. The balance of these 
funds is earmarked for several ongoing and future projects, including 
GPO's critically important Composition System Replacement (CSR) 
project, involving the development of an XML-based composition system 
to replace our 30+ year-old Microcomp system used in the preparation of 
congressional documents for digital and print access, and other 
congressional information projects as indicated on page F-6. Those 
initiatives, which include anticipated projects in support of the 
Legislative XML Working Group and Bulk Data Task Force, including the 
Documents in USLM Projects and USLM Project for Statute Compilations, 
are further described on page F-7.
     public information programs of the superintendent of documents
    GPO is requesting $31,296,000 for this account, which is a 
reduction of $704,000 from the amount GPO requested, and Congress 
appropriated, in fiscal year 2019. This account pays for the cost of 
providing Federal Government publications in digital and tangible 
formats to 1,125 Federal depository libraries nationwide, cataloging 
and indexing, the distribution of documents to recipients designated by 
law, and international exchange distribution.
    This appropriation request represents a nearly 24 percent reduction 
from the amounts appropriated in fiscal year 2010. This reduction has 
been made possible by our continuing transition to digital technology 
and products which has made the increased dissemination of official 
Government information to the public less costly and more efficient. 
The requested amount is based on the outcome of using zero-based 
budgeting to determine the proper levels of funding needed to perform 
program activities at minimum levels, as directed by House Report 114-
110.


     PUBLIC INFORMATION PROGRAMS OF THE SUPERINTENDENT OF DOCUMENTS
                              APPROPRIATION
           Fiscal Year 2010-2019 and Fiscal Year 2020 Request
------------------------------------------------------------------------
           Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010............................  $40,911,000
2011............................  $39,831,178
2012............................  $35,000,000
2013............................  $31,437,000
2014............................  $31,500,000
2015............................  $31,500,000
2016............................  $30,500,000
2017............................  $29,500,000
2018............................  $29,000,000
2019............................  $32,000,000
2020............................  $31,296,000 (Requested)
------------------------------------------------------------------------


    The funding we are requesting for fiscal year 2020 will cover 
mandatory pay and related cost increases, and support GPO's efforts to 
maintain a 100 full-time-equivalent (FTE) workforce to support the 
Superintendent of Documents' Public Information Programs.
    Last year, GPO's fiscal year 2019 budget request for $32,000,000 to 
support the Public Information Programs account included funding to 
enable an increase of 11 FTE positions to achieve a 100-FTE level. GPO 
had requested this staffing level increase in order to handle 
significant increases in program activities dealing with historic 
document digitization and collection management, web harvesting, 
inventory, cataloging, and preservation of tangible collections in FDLP 
libraries. GPO continues to work toward that goal and the funding 
requested in fiscal year 2020 would support that level of staffing.
    A significant difference between GPO's fiscal year 2020 and fiscal 
year 2019 requests for the Public Information Programs account is that 
in fiscal year 2019 GPO had to budget for a non-recurring $2.0 million 
cost to support the production of the 2018 Edition of U.S. Code, which 
is required by statute to be carried out every 6 years. Without the 
need to provide for that cost in fiscal year 2020, GPO has been able to 
request $31,296,000 for the Public Information Programs account. This 
figure represents a net reduction of $704,000 from GPO's fiscal year 
2019 request, even though GPO estimates that mandatory pay and related 
increases of approximately $882,000 and price-level increases of 
$414,000 for this account in fiscal year 2020.
    GPO plans to utilize carry-over balances from funds transferred to 
the Business Operations Revolving Fund to support high-priority 
information services and products funded by this account as indicated 
on page F-6 of our budget justification for fiscal year 2020, including 
the collection preservation of new and historic documents and continued 
development of govinfo content and capabilities.
                   business operations revolving fund
    GPO is requesting $6,704,000 for this account, to remain available 
until expended, to support continued investment in information 
technology and cybersecurity projects. This compares with the 
$6,000,000 GPO requested, and Congress appropriated, for these same 
purposes in fiscal year 2019. Funding provided to this account 
represents an increase to working capital for specified projects.
    Since fiscal year 2013, these projects have consistently included 
improvements to GPO's FDsys website and its successor govinfo, which 
have expanded public access to congressional and other Government 
information products in digital formats while decreasing the costs of 
distributing traditional print formats. They have also included efforts 
to harden and secure GPO's IT infrastructure from persistent external 
cybersecurity threats.


        APPROPRIATIONS TO THE BUSINESS OPERATIONS REVOLVING FUND
        Fiscal Year 2010-2019 and Requested for Fiscal Year 2020
------------------------------------------------------------------------
           Fiscal Year                         Appropriation
------------------------------------------------------------------------
2010............................  $12,782,000
2011............................  $ 1,655,682
2012............................  $   500,000
2013............................  $ 3,966,847
2014............................  $ 8,064,000
2015............................  $ 8,757,000
2016............................  $ 6,832,000
2017............................  $ 7,832,000
2018............................  $ 8,540,000
2019............................  $ 6,000,000
2020............................  $6,704,000 (Requested)
------------------------------------------------------------------------

           govinfo projects for fiscal year 2020--$5,704,000
  --General System and Collection Development ($4,400,000).--
        Development of new govinfo features to support identified needs 
        of key stakeholders, including developing new content 
        collections, increasing content in existing collections, 
        enhancing the accessibility of content, and increasing the 
        discoverability of information.
  --Infrastructure ($1,304,000).--Infrastructure for the hardware, 
        storage, and environments to manage system performance as 
        govinfo content and usage continues to grow.
        cybersecurity projects for fiscal year 2020--$1,000,000
  --Security Enhancements for Advanced Persistent Threat 
        ($1,000,000).--The cybersecurity threat environment faced by 
        Government agencies continues to change rapidly and presents 
        substantive risks and dangers to organizations. The requested 
        funding is planned to address that evolving threat environment 
        by implementing enhanced IT security systems that are intended 
        to reduce the risk of unauthorized data exfiltration, 
        unauthorized access, unauthorized changes to data, and related 
        impacts.

    Madam Chairman, Ranking Member Murphy, and Members of the 
subcommittee, on behalf of the men and women of GPO I want to express 
our deep appreciation for the support you gave our fiscal year 2019 
appropriations request, and for your continuing interest in the 
important work performed by dedicated employees of the Government 
Publishing Office.
    Thank you for this opportunity to offer testimony in support of 
GPO's fiscal year 2020 appropriations request.

    [This statement was submitted by John W. Crawford, Acting Deputy 
Director.]
   Prepared Statement of the Office of Congressional Workplace Rights
    Madam Chairman Hyde-Smith, Ranking Member Murphy, and Members of 
the subcommittee on the Legislative Branch, thank you for allowing me 
the opportunity to submit for the record this statement regarding the 
budget request for fiscal year 2020 for the Office of Congressional 
Workplace Rights (OCWR). I want to express our appreciation to this 
subcommittee for its continued support of the OCWR and its mission of 
advancing workplace rights, safety, health, and accessibility for 
employees in the legislative branch and visiting members of the public.
    The Congressional Accountability Act of 1995 (CAA) embodies a 
promise by Congress to the American public that it will hold itself 
accountable to the same Federal workplace and accessibility laws that 
it applies to private sector employers and executive branch agencies. 
Congress established the OCWR--until recently known as the Office of 
Compliance--to administer the CAA.
                      the ocwr's statutory mandate
    The OCWR is a very small office with a very broad mandate. With 28 
FTE positions, inclusive of a part-time Board of Directors, the OCWR 
serves the same functions as multiple agencies in the executive branch, 
including the Equal Employment Opportunity Commission, the Occupational 
Safety and Health Administration, the Department of Labor, the 
Department of Justice, and the Federal Labor Relations Authority. We 
enforce Federal workplace and accessibility laws that cover more than 
30,000 employees in the legislative branch, including the Senate, the 
House of Representatives, the United States Capitol Police, the Library 
of Congress, the Congressional Budget Office, the Office of the 
Architect of the Capitol, the Office of the Attending Physician, the 
Office of Congressional Accessibility Services, and our own office, 
among others. We administer the administrative dispute resolution (ADR) 
system established by the CAA to resolve workplace disputes; we carry 
out a program of education respecting the laws made applicable to 
employing offices of the legislative branch by virtue of the CAA and to 
inform individuals of their rights under those laws; and we advise 
Congress on needed changes and amendments to the CAA.
    Furthermore, our Office of General Counsel (OGC) is responsible for 
inspecting--at least once each Congress--over 18 million square feet of 
facilities and grounds in the legislative branch for Occupational 
Safety and Health Act (OSH) violations, as well as the public areas of 
all facilities in the legislative branch for compliance with titles II 
and III of the Americans with Disabilities Act (ADA). Moreover, the OGC 
investigates allegations of OSH, ADA, and unfair labor practice (ULP) 
violations filed under sections 210, 215 and 220 of the Act, and for 
filing and prosecuting complaints of OSH, ADA and ULP violations. With 
no redundant staff, the OCWR also regularly contracts for the services 
of other individuals such as mediators, hearing officers, and safety 
and health inspectors, in support of its statutory mandate.
                           the caa reform act
    On December 21, 2018, the Congressional Accountability Act of 1995 
Reform Act was enacted. Public Law No. 115-397. Not since the passage 
of the CAA in 1995 has there been a more significant moment in the 
evolution of legislative branch workplace rights. The new law focuses 
on protecting victims, strengthening transparency, holding violators 
accountable for their personal misconduct, and improving the 
adjudication process. The CAA Reform Act includes many important 
changes that dramatically expand the OCWR's duties and 
responsibilities, as well as the number of employees covered by the 
CAA.

    These new duties and responsibilities include:

  --substantially modifying the ADR process under the CAA, including 
        creating additional procedures for preliminary hearing officer 
        review of claims;
  --developing and implementing procedures for current and former 
        Members of Congress to reimburse awards or settlement payments 
        resulting from harassment or retaliation claims;
  --developing and implementing procedures for employing offices to 
        reimburse payments resulting from specified claims of 
        discrimination;
  --appointing one or more advisors to provide confidential information 
        to legislative branch employees about their rights under the 
        CAA;
  --renaming our office as the Office of Congressional Workplace Rights 
        to more clearly inform the legislative branch community of our 
        mission;
  --extending CAA protections to unpaid staff, including interns, 
        detailees, and fellows, as well as employees of the John C. 
        Stennis Center for Public Service Training and Development, the 
        China Review Commission, the Congressional-Executive China 
        Commission, and the Helsinki Commission;
  --significantly expanding OCWR reporting obligations;
  --developing and administering a biennial climate survey of all 
        legislative branch employing offices to collect information on 
        the workplace environment and attitudes regarding sexual 
        harassment;
  --creating a program to permanently retain records of preliminary 
        reviews, mediations, hearings, and other proceedings;
  --establishing an electronic filing system to receive and keep track 
        of claims; and
  --developing and implementing means by which legislative branch 
        employees who work outside of the Washington, D.C., area--such 
        as in Members' district offices--have equal access to OCWR 
        services and resources.

    Some of the changes in the CAA Reform Act became effective 
immediately upon enactment, such as the renaming of the Office, but 
most became effective 180 days from enactment, i.e., on June 19, 2019. 
The biennial climate survey, being designed in fiscal year 2019, will 
be administered for the first time in fiscal year 2020.
            the ocwr's fiscal year 2020 budget justification
    For fiscal year 2020 operations, we are requesting $6,332,670, 
which is the same amount as our fiscal year 2019 enacted level. 
Approximately 60 percent of the requested amount provides pay and 
benefits to OCWR employees. The remainder focuses on supporting the 
OCWR's statutory mandates and improving the delivery of services to the 
covered community under the CAA. It also reflects the OCWR's 
implementation and administration of the changes set forth in the 
Reform Act, discussed above. This amount will also allow us to carry 
out our statutory mission to educate and train Members of Congress, 
their staff, and other legislative branch offices and employees on 
their rights and responsibilities under the CAA by developing education 
and training courses specifically designed for the legislative branch, 
which are easily understood, practical rather than legalistic, and 
proven effective. The education and training programs mandated by the 
Reform Act reflect Congress's ongoing commitment to foster and promote 
a healthy workplace culture on Capitol Hill.
    The OCWR received a substantial increase to its funding for fiscal 
year 2018 and fiscal year 2019. Using this funding, we implemented the 
statutorily mandated changes by June 19, 2019, including the design and 
development of a secure e-filing system, and revision of all 
publications and education and training materials that the OCWR 
produces to incorporate the changes set forth in the Reform Act. 
Although the initiatives mandated by the Reform Act required 
substantial funding in fiscal year 2019, many of those initiatives will 
also require ongoing funding in fiscal year 2020 and beyond. For 
instance, the e-filing system will require continuing cybersecurity 
upgrades and modifications. Online training and educational modules 
must be continually updated. New ADR procedures, such as preliminary 
review by hearing officers of certain claims, will affect the costs 
associated with adjudicating those claims.
    One of the most costly and laborious tasks for OCWR is the 
designing, development and implementation of a biennial climate survey 
on the workplace environment and attitudes regarding sexual harassment 
in the legislative branch. Conducting the survey beginning in fiscal 
year 2020 and every 2 years thereafter, updating the survey, and 
interpreting the data resulting from the survey, will result in 
additional recurring costs.
    Of the fiscal year 2020 requested amount, the OCWR is requesting 
that a total of $1,000,000 remain available until September 30, 2021, 
for the services of essential contractors, including hearing officers, 
mediators, and safety and health inspectors and to design, develop, and 
implement a climate survey of the legislative branch employing offices.
                 alternative dispute resolution program
    The OCWR requests a total of $300,000 for non-personnel services 
for fiscal year 2020 for administration of its ADR program, which 
represents our best estimate for the cost of administering that program 
in the coming fiscal year based on past and current expenses. The CAA 
establishes an ADR process that provides employing offices and covered 
employees a neutral, efficient, and cost-effective means of resolving 
workplace disputes. We strive to ensure that stakeholders have full 
access to these ADR procedures. The OCWR enjoys a 100 percent 
affirmance rate in employment cases by the U.S. Court of Appeals for 
the Federal Circuit. We continue to do more with less, maintaining a 
flat rate of pay for contract mediators, a standardized hourly fee for 
hearing officers, and rate limitations for other outside service 
providers.
    In any given year, it is difficult to predict the number of cases 
that will be filed with the OCWR's ADR program, the complexity or 
duration of administrative proceedings, or the overall costs associated 
with case processing and adjudication. In fiscal year 2018, for 
example, Library of Congress employees were allowed to file claims with 
the OCWR for the first time. This has already added to the number of 
cases filed with the OCWR, and we expect that number will continue to 
increase. Fully implementing the CAA Reform Act in the last quarter of 
fiscal year 2019 adds to the difficulty of making such predictions for 
fiscal year 2020. The new ADR process, as required by the Reform Act, 
is outlined in our fiscal year 2020 budget justification. As discussed 
above, these changes require, among other things, that an additional 
hearing officer be appointed to conduct a preliminary review in each 
case filed on or after June 19, 2019, that involves claims arising 
under part A of title II of the CAA. Furthermore, the changes set forth 
in the CAA Reform Act required the OCWR to amend its Procedural Rules, 
modify its Case Management System, develop and maintain a full 
electronic filing system, and improve IT infrastructure and 
cybersecurity. Other changes in the Reform Act--such as extending CAA 
protections to unpaid staff, including interns, detailees, and 
fellows--are highly likely to add to the number of cases on the ADR 
docket. Our budget justification takes these considerations into 
account when projecting the costs for administering this program in 
fiscal year 2020.
                    education and training programs
    The OCWR is requesting a total of $370,000 for non-personnel 
services for fiscal year 2020 for its Education and Training Programs. 
Our office has a statutory mission to educate and train Members of 
Congress and legislative branch employees on their rights and 
responsibilities under the CAA. In fiscal year 2019, demand for our 
educational and training materials on preventing harassment and other 
forms of discrimination in the workplace dramatically increased, and we 
anticipate continued demand for these educational services.
    During fiscal year 2019, at the request of the Congressional 
Research Service, OCWR presented in- person training during District 
and State Staff Institute programs. During each training session, the 
OCWR interacted with approximately 40-50 congressional staffers new to 
their jobs in district and State offices located around the country. In 
fiscal year 2019, the OCWR delivered training to thousands of 
legislative branch employees in-person, via webinar, and online. Topics 
included the rights and protections under the CAA and OCWR procedures, 
as well as training on specific areas of the law including Veterans 
Employment Opportunities Act and the Family and Medical Leave Act. In 
addition, the OCWR provided training on CAA-related curricula designed 
to promote awareness and compliance with the Act, including training on 
bystander intervention and unconscious bias. The OCWR also prepared and 
distributed thousands of Notices to employing offices that describe the 
rights, protections, and procedures under the CAA.
    The OCWR also reorganized and updated its website and added 
additional tools in fiscal year 2019, including interactive information 
on safety and health issues, and publications to educate the covered 
community. The OCWR's monthly publications and quarterly electronic 
newsletters are aimed at keeping the congressional community up to date 
on developments in the areas of safety and health and workplace rights. 
The OCWR continues to meet this need for education and information on 
the CAA.
    In fiscal year 2019, the passage of the Reform Act required the 
OCWR to modify its publications and online training and education 
materials, and provide equal access to OCWR services and resources for 
out-of-area employees. Virtually everything that the OCWR produces, 
including publications and training materials, has been revised. In 
addition, we are developing new tools, and expanding online offerings 
to include videos on the CAA and OCWR procedures, as well as ADA 
instructional guidance. We are working with covered employing offices 
to support their programs to train and educate employees on their 
rights and protections. Our ongoing mission to provide stakeholders in 
the legislative branch with current, dynamic and innovative educational 
and outreach materials will require substantial funds in fiscal year 
2020.
                  safety and health and public access
    The OCWR is requesting a total of $302,600 for non-personnel 
services for fiscal year 2020 for its OSH and ADA public access 
inspection programs. Before the OCWR opened its doors in 1996, Capitol 
Hill buildings had not been subject to even the most basic building 
codes or regulations. The first inspections led to the discovery of 
serious fire and other safety hazards in House and Senate buildings and 
around the Capitol. As a result of OCWR inspections, Congress has 
abated thousands of serious hazards, reduced numerous barriers to 
access for individuals with disabilities, and dramatically improved the 
overall safety and accessibility of the Capitol Hill campus. The OCWR 
has been instrumental in developing and implementing cost-effective 
solutions to safety and access problems by working directly with the 
Architect of the Capitol and other offices on the Hill. It is during 
these inspections that our inspectors, who are trained OSH and ADA 
specialists, can work directly with employing offices, providing 
technical support at the point where assistance is needed. Our budget 
request will allow us to continue to provide the level of expertise and 
assistance that the community deserves.
                          additional services
    The balance of the requested amount covers contract services, 
including those furnished by cross-service providers, such as the 
Library of Congress and the National Finance Center, and other 
services, equipment and supplies needed to operate the OCWR.
    Thank you very much for providing us with this opportunity to brief 
you on our fiscal year 2020 budget request. As the Executive Director 
of the OCWR, I am proud of the work that our highly professional, 
talented, and motivated staff members perform every day. We are 
available to answer any questions or to address any concerns that the 
Chair, Ranking Member, or Members of the subcommittee may have.

    [This statement was submitted by Susan Tsui Grundmann, Executive 
Director.]
                                 ______
                                 
         Prepared Statement of the Open World Leadership Center
    Chairwoman Hyde-Smith, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to present testimony on the Open 
World Leadership Center's budget request for fiscal 2020. In this 
request, the Center is asking for $5.8 million, an increase of $200,000 
or 3.6 percent over the 2019 enacted appropriation. Open World has been 
at the current enacted level since fiscal 2016. The increased funds are 
needed mostly for program costs, especially airfare, accommodations, 
and other logistical expenses.
    The Center conducts a one-of-a-kind, peer-to-peer exchange program 
in the legislative branch that has hosted more than 28,000 emerging 
leaders from Russia, Ukraine and other post-Soviet and transitional 
states since 1999. In 2018, more than 140 of our participants were 
either Members of Parliament, Parliamentary staff, or regional and 
local legislators. By the end of this year, we will have hosted our 
20,000th Russian participant.
    As a legislative branch agency, the Center is well-placed to 
provide critical support to Congress in its foreign affairs oversight 
responsibilities. Indeed, this placement is the leading component of 
the success of the Open World program in these strategically important 
countries. Providing programs for informed citizens and in turn for 
more informed legislators is universally a good thing--and we do this 
in an extremely critical region of the world where transparency and 
accountable governance are not traditions.
    On the program side, Open World has an American hosting network of 
service clubs, local NGO's and community colleges as well as thousands 
of volunteer host families. In 2018, these host families lived in 
nearly 120 congressional districts in 48 states and contributed nearly 
$2 million worth of in-kind contributions. Coupled with an increasing 
number of U.S. embassies working directly with Open World and other 
cost sharing partners, this keeps the per person cost of an Open World 
delegate at about $9,000--far below the standard executive branch rate 
of nearly $20,000 per person.
    Open World's young leaders stay in private homes in American 
communities across the country. They discuss topical issues of mutual 
interest and experience firsthand the functioning of our democratic 
institutions. They talk with their counterparts during the professional 
program and go back to their countries with high praise for that and 
for their American host families. This is how the Open World program 
nurtures civil society that develops not only from the top down, but 
from the ground up and the periphery in. Each year, there are new 
American civic organizations such as Friendship Force, Rotary, Sister 
City or other clubs joining the Open World network. And because of this 
network, these future leaders from Eurasia form positive views of the 
United States which in turn will influence attitudes in their home 
countries.
    But the most important work we do is to showcase the American 
system of governance, in particular the legislative process. Did you 
know that the Americans with Disabilities Act has impacted communities 
far beyond our borders? Last year, a delegation from Azerbaijan with 
three disabled participants went to Reno, Nevada to examine how that 
law could be replicated in their country. That the GI Bill and other 
Veteran-related legislation inspired the Ukrainian Parliament to 
establish the Ministry of Veterans' Affairs last year? An Open World 
delegation hosted in Maryville, Tennessee on Veterans' Issues is taking 
the lead to help craft legal and legislative language addressing these 
needs. That the Freedom of Information Act leaves an indelible 
impression on the many Russian journalists and media specialists that 
come on the Open World program? When a state journalist from Foreign 
Minister Sergei Lavrov's press pool expresses a favorable impression of 
the work of the Voice of America, acknowledging its independence, no 
less, we have just made an inroad in countering disinformation.
    For the United States Congress, the Open World Leadership Center is 
a resource: our delegations are ready and willing to provide on-the-
ground information--unfiltered information--about events and 
developments in their countries.
    Open World is an asset: our Parliamentary program is unmatched in 
the Legislative Branch. When your counterparts in Open World countries 
meet with you, you are getting direct and firsthand information. This 
in turn becomes the basis for a more informed foreign policy.
    Open World is an investment: bringing delegations of rising leaders 
to meet with their counterparts here creates a global network of 
partners united in a common goal--to endow democracies in transition 
with the basic ingredients of accountable governance and transparency 
in a civil society.
    The Open World program is your toolkit for supporting democracies 
in transition; a toolkit that creates opportunities for Open World 
participants to experience how legislative action is the change agent 
their governments may need; a toolkit that allows America's 
constituents to engage personally in strengthening civil society in 
other countries. In these countries that do not have a tradition of 
open debate or legitimate opportunities to propose alternatives for 
their government, our participants see how the legislative process can 
empower them to be that force for change.
    Most importantly, though, the Open World program is an effective 
one precisely because it is in the legislative branch. In today's 
geopolitical environment, legislative diplomacy emerges as a unique but 
no less powerful tool for engaging governments in critical regions of 
the world.
    There are good examples of Open World success stories itemized in 
the Congressional justification. This unique program continues to 
succeed in a shifting landscape where it has achieved a special status 
in the successor states of the former Soviet Union and elsewhere. On 
behalf of all of us at the Center, I thank the subcommittee for its 
interest in and support of the Open World Leadership Center.

    [This statement was submitted by Jane Sargus, Executive Director.]
                              ----------                              


                       NONDEPARTMENTAL WITNESSES

    Prepared Statement of the American Association of Law Libraries
    Chairman Hyde-Smith, Ranking Member Murphy, and Members of the 
Subcommittee:

    The American Association of Law Libraries (AALL) is pleased to have 
the opportunity to submit written testimony in support of the fiscal 
year 2020 requests of the Government Publishing Office (GPO) and the 
Library of Congress.
    AALL is the only national association dedicated to the legal 
information profession. Founded in 1906 on the belief that people--
lawyers, judges, students, and the public--need timely access to 
relevant legal information to make sound legal arguments and wise legal 
decisions, its more than 4,100 members are problem solvers of the 
highest order.
    AALL members rely on GPO, the Library of Congress, and the Law 
Library of Congress for access to and preservation of official, 
trustworthy government information. Adequate funding for these agencies 
ensures access to information, which supports access to justice and 
preserves the rule of law.
              funding for the government publishing office
    Under Title 44 of the U.S. Code, GPO is responsible for the 
production and distribution of information products for all three 
branches of the Federal Government. GPO produces, authenticates, 
disseminates, and preserves government information in multiple formats.
    Since fiscal year 2018, GPO has completed several important 
projects to provide greater access to digitized historical material, 
including working with the Office of the Federal Register to digitize 
and provide public access to every issue of the Federal Register back 
to 1936 and the bound Congressional Record back to 1873. Increased 
access to both historical and current content on GPO's govinfo website 
is beneficial to researchers, librarians, and members of the public who 
can view bills and statutes, budget materials, executive agency 
publications, and judicial opinions.
    We commend GPO for recently achieving certification as a 
Trustworthy Digital Repository in compliance with International 
Organization for Standardization (ISO) 16363. GPO is the only 
organization in the United States and the second organization in the 
world to achieve the highest global standard of excellence for digital 
repositories.
    AALL has a special interest in full funding for GPO's Public 
Information Programs account that supports the Federal Depository 
Library Program (FDLP). The requested funding level of $31.3 million 
will allow GPO to provide additional support for locating and 
processing Federal information for inclusion in the FDLP and the 
Cataloging and Indexing Program, among other priorities.
    GPO administers the FDLP by providing Federal Government 
information products in multiple formats to more than 1,100 
participating libraries across the country. These libraries are charged 
with ensuring no-fee access to government information to the public, 
including residents of your districts. Members of the public visit 
depository libraries to access essential legal titles on topics such as 
health information, bankruptcy, and housing services. Approximately 200 
law libraries participate in the FDLP, including my own institution, 
Duke University School of Law. The J. Michael Goodson Law Library, open 
to the public, celebrated its fortieth year as a selective depository 
library in 2018.
    AALL also supports full funding for the Congressional Publishing 
appropriation and Revolving Fund so that GPO may continue to publish 
legislative information and support the development of govinfo to add 
new content collections and improve the accessibility and 
discoverability of information.
                  funding for the library of congress
    AALL is grateful to this subcommittee for its approval of past 
requests to replace broken shelving, implement a digitization strategy 
to provide access to public domain U.S. legal and legislative 
materials, and allow the Law Library to continue to work toward 
completion of the K Class modern classification standard to increase 
public access to its law collection.
    The Law Library is a treasured institution with an unparalleled 
collection of domestic, foreign, and international legal material. The 
Law Library is a world leader in providing access to reliable legal 
materials in print and electronic formats and it must have adequate 
funding to meet the needs of Congress, the Supreme Court and other 
court judges, attorneys, and the public.
    AALL supports the Law Library's $18 million request for fiscal year 
2020 so that it may, among other priorities, complete Phase 3 of the 
project to archive the Law Library's Global Legal Research Directorate 
reports and continue its digitization efforts to provide access to 
historical Congressional and other public domain materials. AALL also 
urges continued investment in the development of Congress.gov, the 
official website for Federal legislative information and an essential 
tool for legal research.
    We commend the Library of Congress for updating its information 
technology operations and meeting nearly all of the recommendations 
from the Government Accountability Office's 2015 report on the 
Library's information technology. We also express appreciation for 
modernization efforts at the Copyright Office, which has been working 
in close coordination with the Library's Office of the Chief 
Information Officer. We welcome Dr. Hayden's appointment of Karyn A. 
Temple as the new Register of Copyrights, and we are confident the 
Office's modernization will continue under her leadership.
                               conclusion
    Thank you once again for the opportunity to submit testimony on the 
fiscal year 2020 requests of GPO and the Library of Congress. AALL 
urges you to approve full funding for these legislative branch 
agencies.

    [This statement was submitted by Femi Cadmus, President.]
                                 ______
                                 
         Prepared Statement of the American Library Association
    On behalf of the American Library Association, thank you for the 
opportunity to submit this testimony regarding Legislative Branch 
Appropriations for fiscal year 2020. We respectfully request the 
Committee's support for funding for the Library of Congress and the 
Government Publishing Office, which provide valuable services to 
libraries and the public nationwide.
                          library of congress
    The Library of Congress is the largest library in the world, with 
millions of books and other items in its collections. In addition to 
serving Congress, the Library is a resource to libraries across the 
country and the American public. The Library's proposed visitor 
experience enhancements would highlight its unique collections and 
inspire millions of visitors to learn, create, and innovate. In 
addition, the Library's services support education and research far 
beyond the walls of its buildings.
    Through its National Library Service for the Blind and Physically 
Handicapped, for instance, the Library of Congress serves readers who 
cannot see print or handle print materials. This national program 
provides access to books and reading materials for people across 
America, including through a network of regional libraries, such as the 
Mississippi Library Commission's Talking Book Services and the 
Connecticut State Library's Library for the Blind and Physically 
Handicapped.
    The Library of Congress also provides access to a wealth of 
information online for users nationwide. The Library is digitizing 
thousands of pages of its collections and records and making that 
information available to anyone with an Internet connection. For 
instance, digitizing historical copyright records will make it easier 
for users to identify the rightsholder or status of works that were 
registered with the Copyright Office. Additionally, every year the 
Library creates thousands of catalog records and shares them for the 
use of libraries around the country.
                      government publishing office
    The Government Publishing Office (GPO) provides essential 
information to America's businesses, legal system, and researchers. 
GPO's online repository of government information and the public 
information programs of GPO's Superintendent of Documents benefit users 
and libraries nationwide.
    The Federal Depository Library Program (FDLP), administered by GPO, 
helps people access Federal laws, regulations, and publications in 
communities across the Nation. More than 1,100 libraries participate in 
the FDLP, such as the University of Southern Mississippi's Joseph 
Anderson Cook Memorial Library and the University of Connecticut's 
School of Law Library. Modernization legislation introduced in the 
115th Congress would further strengthen the program, if enacted; we 
hope that Congress will reintroduce and pass it in the 116th 
Congress.\1\
---------------------------------------------------------------------------
    \1\ FDLP Modernization Act of 2018, H.R. 5305, 115th Cong. (2018).
---------------------------------------------------------------------------
    In addition, GPO annually adds thousands of new government 
publications to its free online repository, govinfo.gov. GPO also 
catalogs thousands of publications every year to assist researchers in 
locating them. To ensure that these important documents of our republic 
remain available over the long term, GPO manages a cooperative 
preservation program with libraries across the country.
                               conclusion
    Thank you for the opportunity to testify before the subcommittee in 
support of the fiscal year 2020 requests of the Library of Congress and 
the Government Publishing Office. We ask for the subcommittee's support 
in meeting the requests for these important national programs that 
serve Congress, libraries, and the American public.

    [This statement was submitted by Kathi Kromer, Associate Executive 
Director, Public Policy and Advocacy.]

The American Library Association (``ALA'') is the foremost national 
organization providing resources to inspire library and information 
professionals to transform their communities through essential programs 
and services. For more than 140 years, the ALA has been the trusted 
voice for academic, public, school, government and special libraries, 
advocating for the profession and the library's role in enhancing 
learning and ensuring access to information for all.
                                 ______
                                 
        Prepared Statement of the Center for Responsive Politics
    Chairman Hyde-Smith, Ranking Member Murphy, and Members of the 
subcommittee, thank you for the opportunity to submit testimony on a 
simple way the Senate can improve the transparency of lobbyist 
disclosures.
    I am executive director of the Center for Responsive Politics, a 
nonpartisan, nonprofit research organization based here in Washington 
that monitors and analyzes campaign contributions in Federal elections, 
lobbying, and other forms of money and influence in U.S. politics and 
policy.
    The Secretary of the Senate and Clerk of the House serve as the 
repositories for over 20 years of data detailing the lobbying 
activities of thousands of organizations that are required to file 
under rules set forth by the Lobbying Disclosure Act of 1995 (LDA) and 
Honest Leadership & Open Government Act of 2007 (HLOGA). These reports 
serve as the basis for important public resources that allow 
investigations by academics, journalists and Congress itself that 
contribute to the integrity of policy making processes.
    Annually, these reports list more than 11,000 individual lobbyists 
as having undertaken significant ``lobbying activities.'' \1\ The 
Center for Responsive Politics (CRP) and others rely on this data both 
to populate the OpenSecrets.org website, which is free and open to the 
public, as well as to provide additional research assistance for 
journalists, nonprofits, academic institutions and interested citizens.
---------------------------------------------------------------------------
    \1\ Lobbying Disclosure Act Guidance, Revised January 31, 2017; 
https://lobbying
disclosure.house.gov/amended_lda_guide.html#section4.
---------------------------------------------------------------------------
    This work includes normalizing individual lobbyist names to 
facilitate tracking their employment history and political campaign 
contributions. There is currently no publicly available identifier that 
makes clear that names reported as ``Jane Davis,'' ``Jane A. Davis,'' 
and ``Jane Ann Davis'' all refer to the same individual lobbyist. In 
fact, our research finds that over the last 20 years, an average of 12 
percent of names reported annually are extraneous variations due to 
typographical errors, nicknames, and name changes. Recent years have 
been consistently in the 8 percent range. Despite this recent 
improvement, considerable labor is expended reconciling the different 
versions as well as verifying that individuals with similar or common 
names are in fact, different people. Changes to a lobbyist's legal name 
based on changed marital status are common and present further 
challenges as there is often not an easily accessible way to confirm 
that ``Jane Doe'' and ``Jane Buck'' are, in fact, the same person.
    Considerable effort goes toward creating and maintaining a version 
of lobbyist IDs through algorithmic matching as well as human review. 
Following a quarterly filing deadline, considerable effort (both 
algorithmic and human review) is required to reconcile variations in 
lobbyist IDs caused by typos, nicknames, name changes due to marriage 
and changes in associated registrants, delaying the release of an 
improved data set.
    Based on official filing manuals,\2\ the Secretary of the Senate 
and Clerk of the House assign a unique identifier to each lobbyist 
during the filing process that is used to track each person across 
reports (e.g., between LD-1 to LD-2; across various registrants; and in 
the LD-203 contribution reports). However, publicly released 
downloadable data does not include unique IDs. The existing non-public 
identifiers that are used to login can easily and programmatically be 
used to produce ones that are safe to disclose.
---------------------------------------------------------------------------
    \2\ ``Employed lobbyists are assigned a unique ID when they are 
registered with the House and Senate to lobby and added to the 
Contribution Reporting System by the person in your organization who 
manages the registration and reporting filings.''--From the LD-203 
``Help''
manual for filers: https://lda.congress.gov/LC/help/
default.htm?turl=WordDocuments%2F
accessingthesystem.htm.
---------------------------------------------------------------------------
    The Honest Leadership & Open Government Act's revolving door 
provisions make it clear that Congress believes that tracking 
registered lobbyists' employment across government and the private 
sector is essential to monitor for conflicts of interest and to protect 
the integrity of the Federal Government. The recently released 
Government Accountability Office annual review of LDA compliance found 
that 19 percent of 2018 \3\ reports failed to fully comply with 
requirements to disclose previous government employment as required, up 
from 15 percent in 2017. \4\ The ability to easily and accurately 
identify individuals throughout their lobbying careers is integral to 
research and oversight by civil society actors that fill that 
compliance gap.
---------------------------------------------------------------------------
    \3\ ``GAO 2018 Lobbying Disclosure: Observations on Lobbyists' 
Compliance with Disclosure Requirements,'' March 2019: https://
www.gao.gov/assets/700/698103.pdf.
    \4\ ``GAO 2017 Lobbying Disclosure: Observations on Lobbyists' 
Compliance with Disclosure Requirements,'' March 2018: https://
www.gao.gov/assets/700/690988.pdf.
---------------------------------------------------------------------------
    We respectfully request the addition of unique identifiers for 
individual lobbyists that are currently available only internally to 
the offices of the Secretary of the Senate and Clerk of the House to 
the publicly available data files that are updated daily. If the 
addition of such identifiers is not possible at this time, we request 
that a study be undertaken to determine the feasibility of doing so in 
the future.
    Thank you for the opportunity to provide our comments. We welcome 
the chance to discuss them further or answer any questions the 
subcommittee may have. Please feel free to contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9eedf5ecebf3f6f1f2e4defdeceeb0f1ecf9b0">[email&#160;protected]</a>

                                           Sheila Krumholz,
                                                Executive Director.

----------

    Sheila Krumholz is the executive director of the Center for 
Responsive Politics, a nonpartisan watchdog group that tracks money in 
politics. Ms. Krumholz became Executive Director in 2006, prior to 
which she was CRP's research director for 8 years. As research 
director, she supervised data and analysis published on CRP's website, 
OpenSecrets.org, and research for investigative journalists and CRP's 
partners and clients in the media, academia and elsewhere.
    Ms. Krumholz has testified before Congress and the Federal Election 
Commission on issues related to government transparency and 
accountability, and is cited frequently in prominent national news 
outlets. She regularly makes presentations to citizen's groups, 
scholars, government officials, NGOs that conduct research and 
advocacy, and at meetings of professional news organizations. She has a 
degree in international relations and political science from the 
University of Minnesota.
                                 ______
                                 
                Prepared Statement of the Data Coalition
Subject: Recommendation for Congress to Leverage USAspending.gov by 
        Supporting a Congressional Research Service DATA Act 
        Information System

    Chairwoman Cindy Hyde-Smith, Ranking Member Chris Murphy, and 
Members of the Legislative Branch Subcommittee, thank you for this 
opportunity to provide written testimony on behalf of the Data 
Coalition. As we submitted in 2018, this written testimony describes 
how Congress can strengthen its operational capacity and effectiveness 
by utilizing the new government-wide Federal spending data openly 
published under the U.S. Treasury maintained USAspending.gov. 
Additionally, this testimony argues that Congress should invest in a 
DATA Act Information System to incorporate this new national Federal 
spending resource into the Legislative Branch's Budget, Appropriations, 
oversight, and policymaking workflows.
    The Data Coalition was founded in 2012 to advocate on behalf of the 
private sector and public interest for the transformation of government 
information into standardized, open, and machine-readable data. Based 
in Washington D.C., the Data Coalition represent technology and data 
analytic companies as well as public sector focused consulting and 
accounting firms. We empower these data companies to help make our 
government more transparent and efficient.
    As the Committee is aware, in 2014 Congress unanimously passed the 
Digital Accountability and Transparency Act (DATA Act) (Public Law 113-
101) which charged the White House Office of Management and Budget 
(OMB) and the Department of the U.S. Treasury (Treasury) with the task 
of transforming government-wide spending information into standardized, 
searchable open data on a central website.
    Currently the USAspending.gov website reflects the entirety of the 
fiscal year 2018 fiscal year's agency spending data for the public and 
Congressional scrutiny.

The DATA Act: Value, Function, and Vision

    The DATA Act's unified open data set provides a comprehensive map 
of the executive branch's expenditure accounts, their balances, and 
funds available to be spent. Such information had never before been 
publicly-available in an electronic form. The data set also connects 
every account with the contract and grant awards which it funds. Before 
the DATA Act's mandate, this connection between accounting and award 
data did not systematically exist.\1\
---------------------------------------------------------------------------
    \1\ Landefeld, Frank, Jamie Yachera, and Hudson Hollister. The DATA 
Act: Vision & Value. MorganFranklin Consulting. Data Foundation. July 
2016. http://www.datafoundation.org/data-act-vision-and-value-report/. 
See Section III ``How Does the DATA Act Work?''.
---------------------------------------------------------------------------
    In May of 2017, nearly every CFO Act agency began reporting its 
spending to Treasury using this data format (beginning with fiscal year 
2017-Q2). Now, as required by law, agencies are reporting, and Treasury 
is publishing, a unified open data set of executive-branch spending on 
a quarterly basis. By December 2018, the data set reflected the 
entirety of fiscal year 2018, its first complete fiscal year using a 
consistent data structure.\2\ Over 85 Federal agencies are actively 
reporting across over 1,600 Federal accounts.
---------------------------------------------------------------------------
    \2\ By May 2018, USAspending.gov will reflect a full consecutive 
years' worth of Federal spending: the latter three quarters of fiscal 
year 2017 and the first one of fiscal year 2018.
---------------------------------------------------------------------------
    This spending information is centrally defined by Treasury's DATA 
Act Information Model Schema (DAIMS).\3\ The DAIMS is a government-wide 
standardized collection of 400 interconnected data elements together 
representing the relational data structure by which all Federal 
agencies must now map their financial account systems and award 
reporting.
---------------------------------------------------------------------------
    \3\ ``DATA Act Information Model Schema (DAIMS) v1.3.1'' Bureau of 
the Fiscal Service, Data Transaprency. Accessed May 03, 2018. https://
fiscal.treasury.gov/data-transparency/DAIMS-
current.html.
---------------------------------------------------------------------------
    And this is merely the beginning.\4\ For instance Treasury has 
built a number of visualization tools in their Data Lab to demonstrate 
how the DAIMS enables a browsable government account structure or can 
visually represent how the purpose of spending (Budget Function) 
relates to the actual spending mechanism (Object Class).\5\ 
Furthermore, Treasury's Strategic Plan sets a goal to expand the DAIMS 
to cover other ``administrative data and link more domains . . . to 
support decisionmaking and provide metrics for evaluating program 
performance and outcomes''.\6\ And agencies are also seeing financial 
management benefits of agency-wide financial viewpoints enabled by a 
unified data set.\7\
---------------------------------------------------------------------------
    \4\ Mader, Dave, Tasha Austin, Christina Canavan, Dean Ritz, and 
Matt Rumsey. DATA Act 2022: Changing Technology, Changing Culture. 
Deloitte. Data Foundation. May 2017. http://www.datafoundation.org/
data-act-2022/. See ``Realizing the Vision'' for seven Cultural and 
Technical DATA Act recommendations.
    \5\ Data Coalition. ``Treasury Launches Data Lab on Revamped 
USASpending.gov.'' News release, April 5, 2018. DataCoalition.org. 
https://www.datacoalition.org/press-releases/treasury-launches-data-
lab-on-revamped-usaspending-gov/.
    \6\ Department of the Treasury. Strategic Plan 2018-2022. https://
www.treasury.gov/about/budget-performance/strategic-plan/Documents/
2018-2022_Treasury_Strategic_Plan_web.pdf.
    \7\ Landefeld. Vision & Value. See Section IV ``Who Benefits From 
the DATA Act?'' for a full discussion.
---------------------------------------------------------------------------
    In short, the DATA Act is the start to realizing a full life-cycle 
picture of the U.S. Government's financial information.\8\
---------------------------------------------------------------------------
    \8\ Using the DATA Act to Restore the Power of the Purse, 114th 
Cong. (2016) (testimony of Hudson Hollister, Executive Director, Data 
Coalition). https://oversight.house.gov/wp-content/uploads/2016/12/
2016-12-01-DATA-Hollister-Testimony.pdf.

USAspending.gov and Congress: Real-time Insights, Better-Informed 
---------------------------------------------------------------------------
        Decisions

    The real value of the DATA Act as a resource for government-wide 
spending information is in how it can be both publicly accessed via 
USAspending.gov through intuitive visualizations or complete bulk data 
downloads \9\ and automated APIs \10\ for technically advanced users.
---------------------------------------------------------------------------
    \9\ ``How to Access the USAspending.gov Amazon RDS Snapshot.'' 
USAspending.gov Database on AWS. Accessed April 16, 2018. https://
aws.amazon.com/public-datasets/usaspending/.
    \10\ ``The USAspending Application Programming Interface (API).'' 
USAspending.gov. https://api.usaspending.gov/.
---------------------------------------------------------------------------
    For example, the USAspending.gov data provides sufficient 
information, in a readily-available electronic form, for software 
applications to more efficiently conduct the following tasks:

  --Identify the particular agency accounts funded by a Congressional 
        appropriation, select the contract and grant awards paid out of 
        those accounts, and map the geographic impact of those awards 
        by State, zip-code, and potentially Congressional district;
  --Identify all of the agency expenditure accounts funding a Federal 
        grantmaking program, and assess the impact of future 
        appropriations decisions on that program;
  --Identify and track all of the unobligated balances across 
        government, within a particular agency, or within a particular 
        appropriations subcommittee jurisdiction, and reconcile this 
        with approved spending allocations and supplemental budget 
        requests;
  --Make more informed appropriations decisions by comparing the annual 
        budget request to current fiscal year government-wide agency 
        account balances and spending activity;
  --Tag spending to particular programmatic missions, track these 
        resources over time, and pair with additional data sets to 
        assess programmatic performance;
  --Autonomously monitor the impact of Federal spending activity on a 
        geographic region;
  --Access consistent and accurate data to inform Congressionally 
        commissioned government reform and deficit reduction 
        decisionmaking bodies.

    However, to derive such conclusions requires in-depth analysis and 
parsing of the bulk data and the raw agency data submissions,\11\ where 
the real value and insights exist. This is often beyond the technical 
capabilities and time resources of Congressional staff who more often 
possess deep expertise in specific policy issue areas and disciplines 
like public administration, law, business, or policy analysis.
---------------------------------------------------------------------------
    \11\ ``FilesDirectory Listing for Raw Financial Assistance Files/
Raw Quarterly DATA Act Files.'' USAspending.gov Agency Submission 
Files. Accessed April 16, 2018. http://usaspending-
submissions.s3-website-us-gov-west-1.amazonaws.com/.

Recommendation: Provision a CRS Congressional Facing DATA Act 
---------------------------------------------------------------------------
        Information System

    Congress should fund a project at the Congressional Research 
Service to build a Congressional facing DATA Act Information System. 
Such a platform would pull USAspending.gov's bulk data and make it 
readily accessible for the unique budget, appropriations, and oversight 
workflows of Congressional staff, Member Offices, and Committees.
    Specifically, this software-based platform could provide 
Congressional staff with a financial performance and accountability 
dashboard that organizes spending by budget function, maps the impact 
of spending to Congressional districts and Committee jurisdictions, 
includes information on known data quality issues and limitations, and 
links other Federal open data sets for performance analysis. 
Congressional staff could also track specific agency accounts and 
programs through a tailored dashboard equipped with custom alerts, 
report building functionality, and interactive data visualizations.
    The implementation of the DATA Act's USAspending.gov represents a 
significant Congressional investment. The Congressional Budget Office 
originally estimated $300 million in associated implementation costs 
from fiscal year 2014-2018 (though we estimate actual implementation 
costs were ultimately much lower).\12\ For instance, more than $30.7 
million in dedicated funds were appropriated in fiscal year 2016.\13\
---------------------------------------------------------------------------
    \12\ S. Rep. No. 113-139 (2014). https://www.congress.gov/113/crpt/
srpt139/CRPT-113srpt
139.pdf. See page 12.
    \13\ DATA Act Implementation Check-In, 114th Cong. (2016) 
(testimony of David Mader Controller, Office of Management and Budget). 
https://oversight.house.gov/wp-content/uploads/2016/04/2016-04-19-
Mader-OMB-Testimony.pdf. See Appendix B for a summary chart of 
Congressional appropriations for DATA Act implementation.
---------------------------------------------------------------------------
    It is imperative that Congress now also invest in its own capacity 
through system upgrades that leverage newly provisioned national 
information resources such as USAspending.gov.

Conclusion: Data-Driven Decision Making for Congress

    Congress needs to utilize this information resource to enhance the 
way it conducts the day-to-day work of executive branch oversight, 
budget formation, appropriation funding, programmatic authorizations, 
and constituent relations work. Otherwise the government risks this 
legal mandate becoming yet another Federal compliance exercise.
    By fully leveraging USAspending.gov's consistent and reliable 
spending data with a CRS built system, Congress will enhance its 
ability to fully understand how Federal taxpayer funds are ultimately 
used. And in turn, make better, data-driven decisions on behalf of the 
public.

    [This statement was submitted by Christian A. Hoehner, Senior 
Director of Policy.]
                                 ______
                                 
                 Prepared Statement of Demand Progress
    Dear Chairman Hyde-Smith, Ranking Member Murphy, and Members of the 
subcommittee:

    Thank you for the opportunity to submit testimony to the Senate 
Legislative Branch Appropriations Subcommittee. Our testimony focuses 
on technological innovation in the legislative branch, with a 
particular focus on the Bulk Data Task Force and the Library of 
Congress.
    But before we get into the details, thank you for your bipartisan 
leadership in the 115th Congress in support of a number of initiatives 
to modernize the United States Senate. You included more than a half-
dozen significant reforms--including a study on staff pay and 
retention, addressing child care, improving cybersecurity, evaluating 
and strengthening Congress's science and technology expertise, 
addressing the campaign e-filing requirement, and funding internships--
and we can already see the positive effects. We know it was not easy to 
do this and we are deeply thankful for your efforts.
    As you know, Congressional technological innovation is important 
because it implicates the very ability of the Senate to carry out its 
legislative, oversight, and constituent service duties in an effective, 
efficient, and responsive manner. The offices and agencies that support 
the work of Members of the U.S. Senate rely upon a complex series of 
interdependent technologies that together affect how easy or difficult 
it is for Congress to do its job. When the Legislative Bulk Data Task 
Force was created by Congress in 2013, we saw marked improvements in 
how these offices and agencies worked with one another and communicated 
with the general public. The Task Force had a limited purpose, but the 
collaboration it fostered changed the culture of Capitol Hill for the 
better.
    We propose to build upon the accomplishments of the Bulk Data Task 
Force and to address a recurring concern regarding communications with 
the Library of Congress. We make the following four requests:

    1.  Create a legislative branch Chief Data Officer
    2.  Expand the Bulk Data Task Force into the Congressional Data 
Task Force
    3.  Establish a Public Information Advisory Committee for the 
Library of Congress
    4.  Publish the SOPOEA as Structured Data
           the bulk data task force and a chief data officer
    In recent years, the legislative branch has made significant 
advances in releasing legislative information to the public online as 
data. This has served Congress well, as it has facilitated Congress's 
access to its own data--both as raw structured data and as data refined 
by third parties. These data publication initiatives have included the 
online publishing of bills; committee schedules; CRS reports (as PDFs); 
the Senators' Official Personnel and Office Expense Account (as PDFs); 
the new joint meetings calendar; as well as holding regular meetings of 
the Bulk Data Task Force. These efforts are welcome and encouraged.
    Senate Webmaster Arin Shapiro has served as an excellent 
representative of the Senate Sergeant at Arms at the Task Force's 
public meetings and we are grateful to him. We are hopeful that other 
Senate offices will increase their participation.
    With the complexity and distributed governance of information in 
Congress, it is helpful to have a touchstone that can help facilitate a 
coordinated approach to manage that data and support ongoing work to 
transform it into useful information.
    We respectfully request that you establish a Legislative Branch 
Chief Data Officer. The CDO should have the responsibility for tracking 
datasets released by the legislative branch; providing advice, 
guidance, and encouragement to offices regarding the publication of 
legislative branch information as data; supporting the work of the Bulk 
Data Task Force; coordinating the annual Legislative Data and 
Transparency Conference; and providing assistance to the public with 
finding and obtaining legislative data.
    We additionally recommend an expansion of the role of the very 
successful Bulk Data Task Force into the Congressional Data Task Force. 
Congress established the Legislative Bulk Data Task Force with a focus 
on the question of determining whether Congress should make the 
legislative data behind Congress's information system, THOMAS and LIS, 
available to the public as structured data. Ultimately the Task Force 
recommended and GPO implemented the publication of bill summary, 
status, and text information online as structured data.
    Perhaps more importantly, the Task Force--which brought together 
many of the technology stakeholders inside the legislative branch as 
well as members of civil society--continues to hold public meetings on 
a quarterly basis as well as innumerable Congress-only meetings. This 
has led to ongoing collaboration among all the stakeholders that has 
changed the culture of Congress and quietly led to many technological 
advances concerning legislative operations and transparency.
    We encourage you to expand the Bulk Data Task Force into the 
Congressional Data Task Force. An expanded mission would formally allow 
the Task Force to look at how data is handled throughout the 
legislative branch. It would officially allow it to expand its scope 
beyond bills and the data attendant to them. This would allow 
consideration of other legislative documents, the handling of 
information used for oversight, and providing key insights about the 
operations of Congress itself.
   public information advisory committee for the library of congress
    The Library of Congress is proud of its reputation and role as the 
largest library in the world. The Library plays an important role in 
providing information about Congress to Congress and the general public 
(such as through the website Congress.gov), but the Library--at least 
in our experience--has not prioritized its role as a source of 
information and is not in regular contact with civil society, 
especially those with expertise in facilitating public access to 
congressional information. This is a missed opportunity and reflects an 
unfortunate pattern of behavior.
    The Library of Congress did not consult with civil society prior to 
releasing its Digital Strategy, which notably did not address the 
Library's role in collecting, organizing, preserving, digitizing, 
publishing, and contextualizing the legislative activities of Congress 
for the American people. There are significant deficiencies in the 
Library's implementation of the congressional calendar that you 
requested in last year's appropriation bill, most notably in how the 
information is displayed, which is a design issue. We continue to have 
deep concerns with its implementation of the CRS Reports website, 
especially in that information is published only as a PDF. For a decade 
we have asked that the Constitution Annotated be publicly available in 
a more usable format, but the Library has not engaged with us even as 
it apparently moves forward with plans for a major upgrade. We have 
trepidation concerning the Library's plan to create a Congress.gov app 
for $750,000. And we note its decades-long opposition to public access 
to the legislative data.
    This is not intended as a broadside of criticism against the 
Library, especially as it has been under new leadership for the last 
few years. We believe the Library is a pivotal institution in providing 
Congressional and public access to information about Congress's work. 
We support its funding request in full. But we in civil society are 
bewildered when we hear that Library staff feel discouraged from 
participating in the Legislative Data and Transparency Conference or in 
talking with its participants. We are dismayed when the Library does 
not fulfill a request from a Member of Congress to have someone from 
the Library talk with civil society about the CRS Reports website. And 
we are saddened when the Library's implementation of requests from 
Congress do not to satisfy the purposes for which the request was made. 
The Library's difficulties in managing its information technology are 
well documented by the Government Accountability Office, and we welcome 
the creation of the position of Chief Information Officer. There is no 
doubt there are good people at the Library who strive to support 
Congress and the Library's public mission, and we want to empower them.
    It is not unusual for agencies to show reticence to talk with civil 
society, but there is a model that can support changing an agency's 
culture to one of inclusion and conversation. Other legislative and 
executive branch agencies and entities routinely meet with civil 
society stakeholders to share information and provide a foundation for 
collaboration. Inside the Legislative Branch, the aforementioned Bulk 
Data Task Force meets quarterly concerning bulk access to congressional 
data, the Advisory Committee on the Records of Congress semi-annually 
convenes congressional historians, and the Federal Depository Library 
Council is an ongoing point of contact for depository libraries.While 
we note that the Library participates in the Bulk Data Task Force, 
there are significant limits to its engagement that reflect its 
functional units and institutional reluctance.
    To our knowledge, the Library of Congress does not have any regular 
mechanism by which it convenes external and internal stakeholders to 
share information on the Library's legislative information activities. 
Because of the Library's outsized role as an information provider, we 
believe it is important for it to scale its public-facing engagement to 
match. We recommend that such an advisory body be established with 
broad internal and external stakeholder representation that would hold 
regular public meetings where a productive interchange can take place. 
These stakeholders should reflect the functional units inside the 
Library and the civil society organizations that are well known to 
Congress regarding public access to congressional information.
    Accordingly, we urge the creation of a Library of Congress Public 
Information Advisory Committee. We recommend the following report 
language:

        The Library of Congress is encouraged to create an Advisory 
        Committee on Public Access to Congressional Information, 
        composed of internal and external stakeholders that may be a 
        source, consumer, or republisher of information or data 
        concerning Congress, with a particular focus on legislative 
        information. The Advisory Committee shall meet no fewer than 6 
        times a year in open session. The Library is encouraged to 
        consult the Advisory Committee on a regular basis, not just at 
        its meetings, concerning the information it gathers, holds, or 
        publishes regarding Congress, and how that information is 
        presented and released to the public.

    We understand that the Library may not initially welcome the 
creation of such an advisory committee. Nevertheless, we believe that 
deepening engagement with civil society on technology will help the 
Library of Congress fulfill its mission to ``engage, inspire, and 
inform Congress and the American people with a universal and enduring 
source of knowledge and creativity.'' Conversation across government 
silos and with those on the outside often results in the sharing of new 
approaches to addressing technology challenges, the resolution of 
problems before they crop-up, greater understanding of the 
opportunities and constraints posed by new technology, and increased 
adaptability of technology for more uses and for more users. In short, 
this would be a win for Congress, a win for the Library, and a win for 
the public.
                       publish the sopoea as data
    The Legislative Branch Appropriations Act of 2010 (Public Law 111-
68) required the Secretary of the Senate to publish the Senators' 
Official Personnel and Official Expense Account (SOPOEA) Report online 
starting with the first full semiannual period of the 112th Congress. 
This twice-annual report records all the expenses of the United States 
Senate, and has been published and made available to the public in its 
current incarnation since 1964.
    Publication of spending data as a PDF has significant limitations, 
and we request that it be published as structured data. A model could 
be the House of Representatives, which has published its Statement of 
Disbursements as a spreadsheet file (a CSV) starting in early 2016. 
Publication in other formats was contemplated in the 2010 legislative 
language and we urge the Senate to include report language directing 
the SOPOEA be published in a ``structured data format.'' This will 
allow an improved understanding of the information it contains.
    Thank you for the opportunity to testify.

    [This statement was submitted by Daniel Schuman, Policy Director.]
                                 ______
                                 
Prepared Statement of Grant Tudor and Justin Warner, Harvard University
    Dear Chairman Cindy Hyde-Smith, Ranking Member Chris Murphy, and 
subcommittee Members:

    We are graduate students from Harvard Business School and the 
Harvard Kennedy School of Government. We spent the prior 8 months 
engaging in research for the Technology and Public Purpose (TAPP) 
Project at the Belfer Center for Science and International Affairs. Led 
by Belfer Center Director and former Secretary of Defense Ash Carter, 
the TAPP Project works to ensure that emerging technologies are 
developed and managed in ways that serve the public good. Specifically, 
our work interrogated the drivers and potential solutions for the 
widening gap between responsive lawmaking in Congress and the deepening 
complexity of advancements in science and technology (S&T).
    This work was based on more than 40 in-depth interviews; analysis 
of original datasets; a review of archival material; and a literature 
review on the experience of the now-defunct Office of Technology 
Assessment (OTA), technology assessment, and Congress's relationship 
with technical expertise. Our interviews included Members of Congress 
and their staff; leading thinkers from science, industry, and civil 
society; current and former employees of legislative support bodies and 
executive branch agencies; and those previously affiliated with OTA.
    Our report \1\ finds that weakened institutional capabilities have 
limited the legislature's absorptive capacity, or the ways by which it 
recognizes the value of, assimilates, and makes use of knowledge 
outside of itself. Congress does not lack an availability of expertise, 
but instead lacks the capabilities to make use of expertise. In this 
testimony, we describe the observed problem; present our most relevant 
findings regarding the factors handicapping Congress and the limits of 
currently proposed solutions; and briefly outline a recommended 
approach: the design of a new internal body--the Congressional Futures 
Office--as a potential response.
---------------------------------------------------------------------------
    \1\ Online publication through the Belfer Center for Science & 
International Affairs forthcoming.
---------------------------------------------------------------------------
                            observed problem
Federal lawmaking is failing to adequately address issues of public 
        interest associated with S&T advancements.
    A 2019 report by the Congressional Research Service (CRS) details a 
daunting menu of S&T issues likely to confront the 116th Congress, from 
the proliferation of advanced gene editing tools to emerging crises in 
water quality and scarcity. These fast-moving and technically complex 
issues carry profound social, economic and security implications for 
the U.S. We observe that lawmakers are increasingly struggling with 
their complexity.
    As a result, devised policies (or an absence of policies) are 
generating unintended consequences, permitting large-scale waste of 
Federal dollars, and stalling regulatory overhauls necessary for U.S. 
competitiveness. Legislative responsiveness to S&T issues has 
deteriorated as the complexity of S&T issues has considerably deepened, 
with far-reaching implications.
                              key findings
    An overview of the report's three most important findings is 
featured below.

Finding #1

    The critical issue facing Congress is not a lack of technical 
expertise but a lack of absorptive capacity: its ability to recognize 
the value of new, external information, to assimilate it, and to apply 
it to desired ends. Congressional Members and staff are inundated with 
information from both external (e.g., lobbyists, think tanks) and 
internal sources (e.g., CRS). Internal capabilities, however, have been 
unable to keep up. In our report, we consider three dimensions of 
capabilities (resources, processes, and priorities) and find severe 
weaknesses across each, suggesting an impaired ability to intake and 
make use of external knowledge. For example, resources within Congress 
(e.g., staffing in committees and support bodies) have significantly 
diminished while traditional processes for transforming expertise into 
legislation (e.g., hearings) are frequently circumvented. Absent 
adequate resources and strengthened process, Congress will continue to 
make inadequate use of available expertise.
    This suggests that solutions must be focused on improving the 
information intake and processing capabilities of Congress, not just 
creating and delivering analysis.

Finding #2

    Existing internal and external resources are insufficiently 
equipped to address the issue. External resources (e.g., industry, 
civil society, scientific associations) are frequently not useful, lack 
credibility, and are difficult to mobilize effectively. For example, 
qualitative research suggests that information and analysis supplied to 
congressional Members and staff often fails to address their needs, 
even if the analysis is sound. This is partly explained by the distance 
of external actors to Congress, making them poorly positioned to 
respond to the nuanced and day-to-day needs and evolving priorities of 
Members and staff. We find that Congress's existing internal support 
functions (e.g., CRS and GAO), similarly, are significantly limited in 
their S&T-related capabilities given their current mandates, methods, 
and products.

Finding #3

    Currently contemplated solutions (e.g., expanding STAA at GAO, 
reviving OTA) are unlikely to address these institutional challenges. 
In our work, we identified a vast array of S&T-related needs of Members 
and staff across the policymaking process; for example, the need to 
assess the credibility of technical information provided by external 
sources. These needs reflect fundamental information processing 
challenges. STAA and OTA, however, attempt to solve the problem by 
producing more analysis. Given that Congress struggles to process the 
existing analysis available to it, more analysis is unlikely to solve 
the problem. More lengthy reports will not alone solve Congress's S&T-
related challenges. STAA is further hamstrung by its relative distance 
from Congress given that accessing GAO is difficult for most Members 
(and unavailable to staff), and by a mandate that reflects the audit-
oriented priorities of its host institution, which may crowd-out the 
need for S&T-focused priorities.
    Therefore, we believe that the current debate between reinstating 
OTA or expanding resources for STAA is the wrong debate to be having. 
Rather, a solution must be developed that better reflects the nature of 
the challenge: an inability to make use of expertise, not a lack of it. 
A new solution could coexist with STAA, but STAA alone is insufficient.
                            recommendations
    Congress should establish a new and deeply embedded internal 
support body better suited to Congress's needs and its contemporary 
context. Strengthening Congress's capabilities requires a reinvented 
model for integrating external expertise into the policymaking process, 
not a revival of past solutions. The rationale for such an approach is 
threefold.

    First, support bodies deeply embedded within Congress are better 
positioned to have an impact. Such embeddedness allows internal bodies 
to ascertain the needs of Members and staff, respond to institutional 
challenges, and learn through day-to-day engagement.

    Second, establishing a new body enables the design of a solution 
appropriate to the current problem and context. Specifically, the 
design of a new body should reflect a calibrated response to Congress's 
central problem of low absorptive capacity. Its mandate, strategy, 
operating model, and product suite decisions could be formulated 
accordingly. It should also draw upon the learnings and shortcomings of 
OTA and other support bodies, which we distill in our full report.

    Third, creating an internal S&T support body is an opportunity to 
set a new standard for S&T policymaking. OTA exemplified a standard-
setting approach in 1972, inspiring other legislatures around the world 
to follow suit. Congress should again engage its imagination for a 
novel era rather than simply revive old solutions (OTA) or give old 
solutions a new home (STAA).

    We recommend appropriating $8 million in funding to support the 
initial development of the organization and its products, potentially 
increasing to $30 million in annual funding over time. Our report 
provides a detailed specification for a new congressional support 
body--which we call the Congressional Futures Office (CFO)--embedded 
within Congress. This specification is intended to be an actionable 
blueprint for the design and operationalization of the body.

    Six features summarized here reflect the most salient departures 
between our proposed design and the approach of STAA or a potentially-
revived OTA. These features focus on improving Congress's internal 
capabilities to address the fast-moving S&T issues facing the 
institution.

  --CFO should be established with a `problem-driven' mandate rather 
        than an `activity-driven' mandate. Activity-driven mandates 
        pre-determine what products to produce (e.g., `technology 
        assessments' mandated for OTA and STAA), whereas problem-driven 
        mandates only articulate the problem to be solved. This 
        approach permits needed experimentation. Specifically, CFO 
        should be charged with ``enhancing Congress's abilities to 
        collect, process, and make use of technological and scientific 
        knowledge.''
  --CFO should address the proximate needs of Members and staff. We 
        find that Members and staff have an array of S&T-related needs. 
        Proximate needs are those that reflect the immediate 
        requirements of Members and staff--for example, providing rapid 
        technical analysis of draft legislation. Given fast-moving 
        congressional priorities, products that fail to address 
        proximate needs are unlikely to create value for their intended 
        audience. Most decisions will not typically be enhanced by a 2-
        year analytical report by STAA or OTA.
  --CFO must serve a broad constituency of Members and staff rather 
        than narrow audiences. Services that can be provided to many 
        Members and staff are more likely to strengthen S&T 
        capabilities within Congress broadly. In contrast, OTA and STAA 
        deliver services based largely on seniority and to narrower 
        congressional constituencies. Of note, OTA was easily defunded 
        in 1995 in large part due to a failure to serve a broad 
        constituency, instead focusing exclusively on serving a handful 
        of powerful committee chairs.
  --CFO should be led by an empowered Director rather than a board of 
        party leaders. Elected by a newly created bipartisan and 
        bicameral Joint Committee on Science & Technology (JCST), the 
        Director would have broad discretion in defining, managing, and 
        evolving the new organization. Our research suggests that OTA's 
        Technology Assessment Board (TAB) would suffer in today's 
        polarized environment, for example, and that it would fail to 
        give CFO needed flexibility to experiment and adapt to evolving 
        congressional needs.
  --CFO should organize its staff by product offerings (i.e., specific 
        congressional needs) rather than by domains of topical or 
        technical expertise. Forming a product-centric organizational 
        structure--for example, distinguishing research analysts from 
        those responsible for the day-to-day support of Members and 
        staff--will allow a new body to match talent to specific 
        problems. In contrast, domain-centric structures used by OTA 
        and STAA mirror that of universities, elevating the priories of 
        experts rather than congressional needs.
  --CFO should cultivate and leverage global networks as its primary 
        source of expertise in lieu of in-house subject matter experts. 
        This will allow it to meet congressional demands with fewer 
        resources, respond quickly to shifting priorities, and access 
        expertise that is increasingly distributed, fast-paced, and 
        global. In contrast, STAA is developing extensive technical 
        talent in-house. Such an approach is expensive, creates 
        organizational rigidity, and fails to consider the pace and 
        distribution of today's S&T knowledge.

    As an alternative, OTA could be significantly adapted. If OTA were 
revived, its enacting legislation must be amended (e.g., governance, 
mandate) to reflect current challenges and contexts, not those of 1972. 
STAA, on the other hand, would require more fundamental changes: for 
example, to rethink congressional request protocols and traditional 
`technology assessment' products that make its use by most Members and 
staff out-of-reach and unresponsive.

    The scale, speed, and complexity of S&T advancements are escalating 
while lawmaking struggles to keep pace. As the gap between the two 
widens, efforts that fail to improve congressional capabilities will 
also fail to improve policy outcomes. We believe Congress should not 
only invest significantly in itself, but also devise a bold solution 
commensurate with the scale of the S&T challenges it must confront.

Authors:

    Grant Tudor is graduate student at Harvard Business School and the 
Harvard Kennedy School of Government and a Fellow at Harvard 
University's Center for Public Leadership.

    Justin Warner is a graduate student at Harvard Business School and 
the Harvard Kennedy School of Government and a Fellow at Harvard 
University's Center for Public Leadership.

    The authors can be reached at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e09495848f92ce8792818e94a0878d81898cce838f8d">[email&#160;protected]</a> and justin_
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83f4e2f1ede6f1c3ecf6f7efecece8ade0eceead">[email&#160;protected]</a>
                                 ______
                                 
        Prepared Statement of the Innovation Defense Foundation
    Today's Congress has limited capacity when addressing complex 
scientific and technological issues. Currently, there are various 
proposals to bolster Congress's abilities to conduct the necessary 
technological assessments. The two most prominent recommendations 
include reviving the Office of Technology Assessment (OTA) or 
strengthening the Government Accountability Office's (GAO's) ability to 
provide technological assessments for Congress. This testimony will 
explore these proposals to improve congressional capacity with respect 
to questions of science and technology, with a recommendation that 
bolstering the GAO's role may be the most efficient and efficacious way 
to do so.\1\
---------------------------------------------------------------------------
    \1\ This testimony is drawn from a working paper by Wayne T. Brough 
and Josh Withrow, ``Congress, Science, and Technology,'' available at 
www.innovationdefense.org.
---------------------------------------------------------------------------
    Congress faces two significant challenges with respect to assessing 
complex scientific or technological questions. First, misguided 
legislation can generate real economic harm, or, contrarily, proper 
legislation can promote dynamic and innovative markets. Second, 
appropriations and oversight of Federal agencies requires a degree of 
expertise. As the Department of Transportation, for example, prepares 
rulemakings on driverless cars or drones, the corresponding 
congressional committees need a level of informed oversight to 
facilitate outcomes that encourage innovation rather than bureaucratic 
impediments to new technologies.
    If Congress lacks these abilities, the void in information will be 
filled by other actors, either in the executive branch agencies 
implementing legislative mandates, or special interests pursuing their 
own agendas. For the typical member of Congress, information can be 
derived from personal staff, committee staff, Federal agencies, and 
special interest lobbyists; a lack of congressional capacity biases the 
results towards agencies of the executive branch and interest groups. 
Political scientists have explored in great detail how principal-agent 
models can be used to analyze questions of political organization and 
congressional control.\2\ Political scientists such as Mathew McCubbins 
suggest that institutional design has allowed Congress to continue its 
control over the bureaucracy at a relatively low cost.
---------------------------------------------------------------------------
    \2\ While their output is prolific, the seminal piece is M. 
Mcubbins, R. Noll, and B. Weingast, ``Administrative Procedures as 
Instruments of Political Control,'' Journal of Law Economics and 
Organization, 1987, vol. 3, no. 2: 243-247.
---------------------------------------------------------------------------
    But some see a shift away from congressional control created by 
executive branch review of agency rulemakings by the Office of 
Information and Regulatory Affairs within the Office of Management and 
Budget, which began in the Reagan era but has been a critical tool for 
every president since then.\3\ This review mechanism provides the 
president and the administration an opportunity to help shape 
rulemakings according to their preference rather than the will of 
Congress.
---------------------------------------------------------------------------
    \3\ ``Regulatory Planning and Review,'' Executive Order 12866, 58 
Federal Register 51735, October 4, 1993.
---------------------------------------------------------------------------
    Establishing an agency within the legislative branch that provides 
members of Congress with assessments of science and technological 
issues may be a way to address information asymmetries between the 
branches of government. Additional expertise could leave implementing 
agencies with far less discretion when it comes to interpreting 
legislative mandates. Additionally, the technological assessments 
provided to members of Congress can enrich the congressional record, 
should legislation or their implementing regulations face any legal 
challenges.
    With respect to building congressional capacity to address issues 
of science and technology, various strategies have been proposed. One 
is to expand congressional staff, which perhaps may be viewed as the 
most simple and direct approach to the problem. Other proposals include 
developing a new institution responsible for providing scientific and 
technological oversight for Congress. Along these lines, some advocate 
reviving the Office of Technology Assessment, which served this role 
for Congress from 1972 until its dissolution in 1995. Alternatively, 
some suggest that science and technology assistance can be housed in an 
existing institution, such as the Government Accountability Office 
(GAO), and, indeed, the GAO has launched a new initiative to provide 
technological assistance to Congress.\4\ Assessing monitoring costs and 
principal-agent problems of these various options may provide insights 
into the efficacy of each approach.
---------------------------------------------------------------------------
    \4\ Adam Mazmanian, ``GAO Expands and Elevates Tech Assessment,'' 
FCW, Jan. 29, 2019, available at https://tinyurl.com/y9dhwerh.
---------------------------------------------------------------------------
    It is not evident that additional staffing would improve the 
situation. In a recent paper, Jesse Crosson, Geoffrey M. Lorenz, Craig 
Volden, and Alan Wiseman determined that a larger staff does not 
necessarily benefit a lawmaker; rather, what does provide benefits are 
more experienced staff members. The authors found that those 
legislators (especially committee chairs) with more experienced staff 
were more effective and advanced more substantive legislation.\5\ Given 
the need for more experienced staff and the high turnover of 
congressional staff members, establishing a body within the legislative 
branch with the expertise to help members of Congress and their staff 
members evaluate complex policy issues may be a more effective 
solution.
---------------------------------------------------------------------------
    \5\ Jesse Crosson, Geoffrey M. Lorenz, Craig Volden and Alan 
Wiseman, ``How Experienced Legislative Staff Contribute to Effective 
Lawmaking,'' Center for Effective Lawmaking, CEL Working Paper 2018-
002, September 2018, available at https://tinyurl.com/yyefgvjy.
---------------------------------------------------------------------------
    The recognition that Congress needed an objective, expert source of 
technological understanding stretches at least as far back as the early 
1960s. Congress finally established the Office of Technology Assessment 
(OTA) in 1972 to serve this role. The goal was to provide objective, 
unbiased analysis of complex questions of science and technology. For 
the next two decades, the OTA produced hundreds of reports and 
consulted with members of Congress and committees throughout the 
legislative process. Indeed, OTA offered studies of a number of 
important issues, from acid rain to the role of polygraphs to missile 
defense systems.
    While the line between expert analysis and agenda control could at 
times be blurry, the OTA was by necessity very cognizant of the need to 
maintain a reputation as an apolitical agency. Nevertheless, the shadow 
of partisan influence dogged the OTA throughout its existence--at times 
more fairly than others. Thanks in large part to such partisan 
concerns, OTA's fate was effectively sealed by the Republican tidal 
wave of 1994. Part of incoming Speaker Newt Gingrich's ``Contract with 
America'' was a promise to scale back the footprint of Congress 
itself.\6\ While most congressional support agencies saw their belts 
tightened, the OTA received the axe--seeing its entire $22 million 
budget and full-time staff of 143 (and dozens of temporary staff) 
eliminated overnight in 1995.\7\
---------------------------------------------------------------------------
    \6\ Text of the Contract from America has been archived at: https:/
/tinyurl.com/yyx64oxu.
    \7\ This translates to a bit under $37 million in December 2018 
dollars. https://www.bls.gov/data/inflation_calculator_inside.htm.
---------------------------------------------------------------------------
    Whatever issues the OTA may have had, its core functionality was 
not replaced. This was exacerbated by the fact that other staff who may 
have had some ability to fill the void were also drastically reduced. 
The Government Accountability Office staff was cut by nearly 30 percent 
between 1993 and 1997, while the Congressional Research Service took 
more than a 10 percent trim.\8\ Notably, the House Committee on 
Science, Space, and Technology also took one of the most drastic cuts--
laying off nearly half its staff members, dropping from 86 in 1994 to 
45 the following year.\9\
---------------------------------------------------------------------------
    \8\ Thomas E. Mann and Norman J. Ornstein, Vital Statistics on 
Congress, Brookings Institution, Table 5-1, May 2018, available at 
https://tinyurl.com/y8kab7w9.
    \9\ Ibid., Table 5-6, available at https://tinyurl.com/yb8e92ba.
---------------------------------------------------------------------------
    Political challenges aside, it is useful to thoughtfully evaluate 
some of the ways that another body might provide not merely a 
replacement but even an improvement on key aspects of the OTA. One 
structural flaw that presented substantial principal-agent issues in 
the OTA was its controlling body, the Technology Advisory Board (TAB), 
which consisted of six members each from the House and Senate. Although 
the board was evenly split between the dominant parties, by law the 
members were all chosen by the majority leadership of each chamber, 
lending some automatic credence to charges of bias.
    If a renewed OTA is not the best option for providing a 21st 
century level of objective technological and scientific expertise for 
Congress, the beginnings of another solution may already exist in the 
small technological assessment program run by the Government 
Accountability Office (GAO). In addition to its mission to perform 
audits and investigations to root out waste, fraud and abuse, the GAO's 
2002 technology assessment pilot program was expanded into an official 
office in January 2019 to expand its analytical capabilities and advise 
Congress on science and technology matters. The GAO's technological 
assessment program immediately showed promise even with very limited 
reach and resources.\10\
---------------------------------------------------------------------------
    \10\ Jon M. Peha ``Science and Technology Advice for Congress: 
Past, Present, and Future,'' Renewable Resources Journal, 24:2, pp. 19-
23, available at: https://tinyurl.com/y22kn558.
---------------------------------------------------------------------------
    Based on the pilot program's solid performance, the GAO was 
authorized to explore a major expansion in its assessment activities 
that has resulted in the opening of the new office of Science, 
Technology Assessment, and Analytics (STAA).\11\ The office launched in 
January 2019 with 70 staffers, with plans to double that number in the 
near future.\12\ This new STAA office brings the practical advantage of 
already existing as a funded entity with an existing body of high-
quality reports from which to build. Which brings with it the political 
advantage of not adding ``one more boondoggling board to what we 
already have,'' a concern voiced by Congressman H.R. Gross during the 
debate over creating the original OTA that would certainly be voiced 
again by conservatives today.\13\ Moreover, the monitoring costs are 
lower and the principal-agent problems are fewer when comparing the GAO 
to a revived OTA model.
---------------------------------------------------------------------------
    \11\ Legislative Branch Appropriations Bill 2019 (Senate), Rep. 
115-274, at p. 48, available at https://tinyurl.com/ydcxm8fr.
    \12\ Adam Mazmanian, ''GAO Expands and Elevates Tech Assessment,'' 
Federal Computer Week, Jan. 2019. https://tinyurl.com/y2t64ky3.
    \13\ Kunkle, op. cit.
---------------------------------------------------------------------------
    But more than a mere matter of convenience, continuing to house 
technology assessment within the GAO could provide some distinct 
advantages over the workings of the old OTA. Eliminating the 
leadership-dominated TAB and its bureaucratic delays is one such 
advantage, as previously discussed. Instead, the new GAO program 
actually allows any member of Congress to submit a request, although 
prioritizing requests by the chairs or ranking members of the 
committees.\14\
---------------------------------------------------------------------------
    \14\ GAO's Congressional Protocols, July 17, 2017. https://
tinyurl.com/y3nnvkzb.
---------------------------------------------------------------------------
    That said, for the STAA program in the GAO to truly replace the 
positive attributes of the OTA, it would clearly need some 
modifications by Congress. It would likely require making the 
technology assessment program a somewhat independent sub-unit of the 
GAO with its own director, allowing it to develop its own culture 
independent from the sole oversight model of the GAO at large.\15\ 
However, these modifications are likely far easier and more realistic 
than efforts to merely revive the old OTA.
---------------------------------------------------------------------------
    \15\ See Zach Graves, ''Technology Assessment: Can the GAO Fulfill 
OTA's Mission?'' on LegBranch.org, April 20, 2018, available at https:/
/tinyurl.com/y83zcv2n. and Will Rinehart, ``Should Congress Revive the 
Office of Technology Assessment?'' American Action Forum Insight, Oct. 
29, 2018. https://tinyurl.com/y5g5y93q.
---------------------------------------------------------------------------
    Unlike rebuilding OTA, expanding and improving GAO's capacity does 
not involve creating a new government bureaucracy. The GAO also has a 
strong reputation for maintaining political neutrality and producing 
impartial work. In many respects, this may prove the more feasible 
option by avoiding some of the political pitfalls associated with the 
previous incarnation of the OTA. The GAO is respected as a nonpartisan 
organization with little political baggage that is building out its 
expertise in its new STAA program. If done with foresight and an 
understanding of the principal-agent challenges facing any new 
legislative agency, it may be the most efficacious approach to 
increasing congressional capacity in critical areas of science and 
technology.

    [This statement was submitted by Wayne T. Brough, President.]
                                 ______
                                 
               Prepared Statement of the Lincoln Network
    Dear Chairman Cindy Hyde-Smith, Ranking Member Chris Murphy, and 
Members of the subcommittee:

    My name is Zach Graves. I am the head of policy at Lincoln Network, 
a non-profit organization whose mission is to bridge the gap between 
Silicon Valley and DC. Last year, I submitted testimony on enhancing 
congressional capacity on science and technology.\1\ Following a 
bipartisan effort in the last Congress, the fiscal year 2019 
Legislative Branch Appropriations bill included two important 
provisions on this subject. One provided for a major study conducted by 
the National Academy of Public Administration (NAPA). The other 
provided for the elevation and expansion of GAO's science and 
technology program.
---------------------------------------------------------------------------
    \1\ See: ``Written Testimony of Zach Graves before the Legislative 
Branch Subcommittee,'' April 27, 2018. https://www.rstreet.org/2018/04/
27/testimony-of-zach-graves-before-the-u-s-senate-
committee-on-appropriations-subcommittee-on-the-legislative-branch/.
---------------------------------------------------------------------------
    While the NAPA study is still in progress, GAO has reorganized and 
significantly expanded its program into a 15th mission team, called 
``Science, Technology Assessment, and Analytics'' (STAA). While the 
STAA team is new, its core program goes back nearly two decades. The 
original technology assessment pilot at GAO was created in 2001 with 
$500,000 in dedicated funding.\2\ Its first study, ``Using Biometrics 
for Border Security,'' was released in November, 2002. This report was 
reviewed favorably in an external evaluation, which concluded GAO ``did 
a very good job'' on its inaugural assessment, but raised concerns the 
nascent program would face significant challenges to build its own 
culture and scale its capabilities.\3\ In the next couple of years, 
funding for the pilot was expanded, allowing the production of 2-3 
reports a year.
---------------------------------------------------------------------------
    \2\ H. Rept. 107-259, 107th Congress. https://www.congress.gov/
congressional-report/107th-
congress/house-report/259/1.
    \3\ M. Granger Morgan, Jon M. Peha, Science and Technology Advice 
for Congress (Routledge, 2003), Appendix 3.
---------------------------------------------------------------------------
    An effort came together to build off of the GAO pilot's success. In 
2004, Rep. Rush Holt, D-N.J., introduced legislation (with 9 other 
Democrats and 5 Republicans as original cosponsors) to elevate the GAO 
pilot to a formal technology assessment office in GAO called the 
``Center for Scientific and Technical Assessment'' (CSTA).\4\ This 
entity would have adapted major structural features from the defunct 
Office of Technology Assessment (OTA), such as its bipartisan, 
bicameral Technology Assessment Board. The CSTA proposal went through a 
review process that incorporated feedback from civil society experts, 
as well as the office of then Comptroller General David M. Walker. 
While the proposal was favorably received and had bipartisan support, 
it failed to move forward, seemingly due to its large budget 
requirements. Nonetheless, it showed that GAO was a viable location for 
this function, and that such a proposal could attract bipartisan 
support.
---------------------------------------------------------------------------
    \4\ H.R.4670, 108th Congress. https://www.congress.gov/bill/108th-
congress/house-bill/4670.
---------------------------------------------------------------------------
    Rather than partisan politics, the primary challenge to reviving a 
technology assessment office has been finding the necessary resources 
in the constrained legislative branch budget.\5\ Thanks to the efforts 
of this committee and Comptroller General Gene Dodaro, this challenge 
appears to be in the process of being overcome--particularly if GAO's 
fiscal year 2020 budget request can be accommodated.
---------------------------------------------------------------------------
    \5\ ``The Congress's Edifice Problem,'' First Branch Forecast, 
March 1, 2019. https://firstbranchforecast.com/2019/03/01/the-congress-
edifice-problem/.
---------------------------------------------------------------------------
    Its next challenge is figuring out how to structure a nimble, semi-
independent, and forward-looking research unit within another large 
agency, while mitigating potential conflicts in mission, function, and 
process. These were concerns that Rep. Holt and others saw and spent 
considerable time contemplating. If these issues are to be resolved and 
adapted to the needs of our current environment, it will require the 
steady oversight and expert guidance of this committee and other expert 
stakeholders.
                            recommendations
    The strategic plan \6\ for STAA rightly identifies some of the most 
important structural and methodological issues to address, including: 
(1) the inclusion of policy options in its reports; (2) the creation of 
an advisory board that includes industry, government, and civil 
society; (3) the development of additional product types including 
shorter form analysis; and (4) the refinement of its technology 
assessment methodology. It will be critically important to get the 
details right for implementing these features. I thus urge the 
Committee to consider the following recommendations:
---------------------------------------------------------------------------
    \6\ ``GAO Science, Technology Assessment, and Analytics Team: 
Initial Plan and Considerations Moving Forward,'' Government 
Accountability Office, April 10, 2019. https://www.gao.gov/pdfs/about/
GAOScienceTechPlan-2019-04-10.pdf.
---------------------------------------------------------------------------
External Advisory Board
    STAA has said it will create a new S&T advisory board of top 
experts. No doubt, this will be valuable in providing ad hoc advice to 
the Comptroller General and STAA directors on matters such as research 
design, peer review, and related issues. This board should also be 
encouraged to produce periodic analysis and recommendations oriented to 
congressional stakeholders regarding the continued evolution of STAA.
Refining GAO's TA Methodology
    Given its past resource limitations, it was likely not possible for 
GAO's technology assessment program to utilize in-house experts for its 
reports in the manner that OTA did. But the reliance on external 
experts has some significant limitations, inhibiting the capacity for 
experts to serve as ``shared staff'' for Congress, and detracting from 
the robustness of the reports themselves. I believe this methodological 
difference has contributed significantly to skepticism of GAO's 
program.\7\ STAA should be encouraged to prioritize the recruitment of 
in-house experts (permanent staff and project-based contractors/
detailees) and adjust its technology assessment methodology 
accordingly.
---------------------------------------------------------------------------
    \7\ See, e.g., Kevin R. Kosar, ``GAO versus the ghost of OTA'' 
LegBranch.org, March 20, 2019. https://www.legbranch.org/gao-versus-
the-ghost-of-ota-who-will-win-the-science-and-technology-assessment-
race/.
---------------------------------------------------------------------------
Policy Options
    One of the most valuable features of OTA reports was providing 
policymakers with an authoritative, multi-disciplinary analysis of the 
tradeoffs of different policy options. Yet, OTA's options methodology 
was not always internally consistent, and had considerable room for 
improvement. A 1993 OTA self-assessment suggested its options 
methodology warranted a ``more rigorous'' approach. The same report 
also suggested its options may have skewed towards ``increased Federal 
intervention rather than market solutions.'' To address this, STAA 
should be encouraged to develop a formal options methodology that 
prioritizes the inclusion of economic analysis and gives consideration 
to potential solutions from the states or private sector.
Talent Flow and Expert Networks
    OTA widely utilized temporary contractors for its reports. This 
helped bring in best-in-world talent and specialized experts, and 
facilitated the development of expert networks outside Congress. STAA 
should be encouraged to explore greater utilization of the 
Intergovernmental Personnel Act, or other mechanisms, to bring in 
outside talent on an individual project-basis. It should also be 
encouraged to include project-specific external advisory committees to 
assist with individual major projects (beyond the overall external 
advisors noted above).
OTA vs. GAO
    The fiscal year 2020 Legislative Branch Appropriations bill in the 
House of Representatives included $6 million in funding to revive OTA. 
While both STAA and OTA do ``technology assessment,'' the focus and 
mission of each entity is quite different. Thus, each is likely to have 
a different comparative advantage: OTA at horizon-scanning and 
anticipating the social, ethical, and economic effects of emerging 
technologies; and STAA at evaluating Federal Government programs and 
expenditures on S&T, the functioning of regulatory agencies governing 
innovative technologies (e.g. NHTSA's approach to autonomous vehicles, 
or FCC's approach to spectrum policy), and the promotion of responsible 
utilization of new technologies by the Federal Government. Each of 
these fields is massive, and critically important to our national 
interest. In considering this issue, I urge the Committee to consider 
the value of having both OTA and STAA functions to assist the Congress.
                                 ______
                                 
                 Prepared Statement of Jon M. Peha \1\
---------------------------------------------------------------------------
    \1\ Jon M. Peha, Carnegie Mellon University, Professor, Dept. of 
Engineering & Public Policy and Dept. of Electrical & Computer 
Engineering, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7707121f1637141a0259121302">[email&#160;protected]</a>, www.ece.cmu.edu/peha/bio.html.
---------------------------------------------------------------------------
          Testimony on Funding Technology Advice for Congress
    The purpose of this testimony is to urge this subcommittee to fund 
an organization that can provide reliable, objective and timely 
information to help Congress address policy issues that are infused 
with technology or science. Ideally, this would fill the void left by 
the demise of the Office of Technology Assessment (OTA), and surpass 
the capabilities that OTA once provided.
    I am a professor of electrical engineering and public policy at 
Carnegie Mellon University. I have provided technology advice to 
policymakers in my current position, and while serving in the House 
Energy and Commerce Committee, at the Federal Communications Commission 
as Chief Technologist, and in the White House as Assistant Director of 
the Office of Science and Technology Policy. I am co-author of a book 
entitled Science and Technology Advice for Congress \2\ about this very 
issue.
---------------------------------------------------------------------------
    \2\ M. G. Morgan and J. M. Peha, Science and Technology Advice for 
Congress, RFF Press, 2003. https://www.amazon.com/Science-Technology-
Advice-Congress-Granger/dp/1891853740/ref=tmm_pap_title_0.
---------------------------------------------------------------------------
    Thirteen years ago, I testified before the House Science Committee 
on this topic, arguing that Congress needs this capability to fulfill 
its role as a co-equal branch of government. It isn't possible to 
provide effective oversight of the executive branch while relying too 
heavily on executive-branch experts, any more than one can pass 
effective legislation that affects the private sector while relying too 
heavily on experts who collect their salaries from private-sector 
stakeholders. The ways that Congress meets this need with non-technical 
issues tend to work poorly in matters of technology and science. Sadly, 
that 2006 testimony \3\ is just as relevant today. Even the examples 
still apply. I argued that most Members of Congress lacked the 
technical basis to assess the arguments both for and against network 
neutrality, and to learn the potentially life-saving lessons of how 
technology failures during Hurricane Katrina cost so many lives. \4\
---------------------------------------------------------------------------
    \3\ J. M. Peha, Testimony before House Science Committee, Hearing 
on Scientific and Technical Advice for Congress, July 25, 2006. http://
users.ece.cmu.edu/peha/Peha_
testimony_House_Science_Committee_2006.pdf.
    \4\ For today's Congress, we need only replace ``Hurricane 
Katrina'' with ``Hurricane Maria'' to see how life-saving lessons about 
how technology works in disasters are not being learned.
---------------------------------------------------------------------------
    A few things have changed in the last 13 years. First, thanks to 
growing partisan skepticism, there has never been greater need to 
establish a set of basic facts that all sides can rely on when debating 
complex policy issues. Second, thanks to the Internet, it has never 
been easier for Members of Congress and their staffs to gain unfettered 
access to policy-relevant content. Third, it has never been harder to 
tell the accurate, rigorous and unbiased content on the Internet from 
dangerously misleading content. There is far more of the latter than 
the former, and to the untrained eye, it can all look the same. A new 
organization serving the Legislative Branch could greatly reduce this 
problem.
Congress receives extensive input, but not enough actionable info on 
        technology issues.
    Information is constantly flooding into Congress, but it is rarely 
the kind of information that can serve as the foundation for a policy 
debate on a highly technical issue. Stakeholders and the lobbyists who 
represent them are more than willing to provide extensive and timely 
information, but it is necessarily biased. Some outside experts such as 
myself who have no vested interest in an issue try to provide 
information where we can, but precisely because we have no vested 
interest and most of us have day jobs, we lack resources, incentive 
and/or ability to provide information at the time Congress needs it, in 
the form Congress needs, and with the depth Congress needs. The 
National Academies and Legislative-branch organizations such as CRS and 
GAO provide valuable information, but of a different sort. For some 
things, Congress needs a level of technical rigor that CRS and GAO 
cannot provide. Congress also needs foundational information that 
everyone from the far right to the far left can use without making a 
specific recommendation as National Academy reports typically do.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Figure 13-2 from Science and Technology Advice for Congress, by M. G. 
                       Morgan and J. M. Peha.\2\

Every Committee in Congress needs advice on science and technology.
    While some mistakenly view this as an issue only for a Science 
Committee, a quick look at recent Congressional hearings shows that 
every committee in Congress must grapple with a few issues with complex 
technical or scientific content. For example, the Veteran's Affairs 
Committee must understand why telehealth has not yet met its potential 
to improve the lives of veterans. The Transportation Committee must 
understand how changes in connected vehicles and autonomous vehicles 
demand new public policies. The Foreign Relations Committee must 
understand how cybersecurity issues have changed the line between war 
and peace. Every committee will be more effective with a technology-
savvy organization whose entire purpose is to serve Congress.
Objective technical analysis is possible, but it is not a skill most 
        Hill staffers have.
    People call what OTA did ``technology assessment,'' but that phrase 
is misleading. Congress doesn't typically need an assessment of 
technology. Often, Congress needs an organization to clarify the policy 
options available, the extent to which they are technically and 
scientifically feasible, and the myriad pros and cons of each, while 
leaving it to the elected Members of Congress to make value decisions 
about which option is best. In an age where facts are often spun, some 
people even question whether such an objective assessment is possible. 
It is, but it requires training, and a culture of objectivity. This 
runs directly counter to what most lawyers must learn, as in the law 
framing an argument to advance the interests of one's client is usually 
a virtue. Engineering training is extremely valuable, but incomplete, 
as the goal of ``technology assessment'' is not to identify the best 
policy ``design.'' Similarly, backgrounds in science, and in social 
science are helpful, but technology assessment is not a search for 
truth. Thus, few members of Congressional staff (or even temporary 
Fellows) would have the full range of skills needed today. Even if they 
did, such individuals would work for one Congressional office and one 
party, and therefore would never have the credibility to provide the 
factual foundation for a policy debate.
    Nevertheless, there are outstanding examples of balanced 
assessment, some from the old Office of Technology Assessment. Those 
who doubt that analysts can be systematically trained for this task 
should visit my Carnegie Mellon University classroom in the Fall, or 
meet those who have graduated with a Ph.D.
A stand-alone organization would be more effective.
    Some have suggested incorporating the capability for science and 
technology advice with an existing legislative-branch organization, 
i.e. GAO, CRS or CBO. This would certainly be a step forward from what 
we have today, but it is not the most effective approach. GAO, CRS and 
CBO have established methodologies that are well-honed for their 
specific missions, but that are not generally appropriate for advising 
Congress on science and technology. These organizations have recruited 
staffs that are well-suited for the current missions, not for 
technology assessment. These organizations have earned reputations on 
Capitol Hill, throughout government, and in the broader world that help 
them to do their current jobs. People who read their reports know what 
to expect, as do people who provide these organizations with 
information. However, these reputations can be a hindrance if the 
organization were to take on a very different mission. While the people 
in these organizations have made valuable contributions, there are 
advantages to establishing a new organization, perhaps under the old 
banner of OTA, or perhaps as something new.
Spending pennies to save dollars.
    The Appropriations Committee must make hard decisions about how to 
best spend a limited budget. For this committee, technology assessment 
is especially important. As individuals, we know that it is sometimes 
wise to pay for information from a doctor as we confront a medical 
problem, or an accountant as we plan our financial future. The cost of 
a bad decision can far exceed the cost of obtaining information. This 
is even more true when we consider legislation, and appropriations in 
particular. A new organization to advise Congress may cost millions. 
Timely and objective information about how to spend tax-payer dollars 
in a cost-effective way can inform appropriations decisions in a way 
that saves billions.
                                 ______
                                 
              Prepared Statement of the R Street Institute
    Thank you, Chairman Hyde-Smith, Ranking Member Murphy and Members 
of the Legislative Branch Appropriations Subcommittee for holding this 
open hearing, and thank you for receiving my testimony.
    I am vice president of policy at the R Street Institute, and I 
previously spent 11 rewarding years as an analyst and acting research 
manager at the Congressional Research Service (CRS).
    After serving CRS, I joined others in advocating for equitable 
public access to CRS reports. I believed that it was unfair that the 
public had no online source for getting authenticated copies of the 
reports, whereas lobbyists and others within the Beltway had easy 
access. I also contended that in the age of ``fake news'' and 
``alternative facts'' the public and media need more objective sources 
of information for reference.\1\
---------------------------------------------------------------------------
    \1\ Kevin Kosar, ``Where taxpayers pay ($100 million a year) but 
interest groups benefit,'' The Washington Post, Nov. 10, 2015. https://
www.washingtonpost.com/news/Federal-eye/wp/2015/11/10/where-taxpayers-
pay-100-million-a-year-but-interest-groups-benefit/?utm_term=
.965e4c523c42.
---------------------------------------------------------------------------
    This subcommittee acted and fixed the problem. Two years ago, it 
wrote a law that struck down the 1954 appropriations rider that created 
inequitable access.\2\ Thank you, again.
---------------------------------------------------------------------------
    \2\ Consolidated Appropriations Act, 2018 (Public Law 115-141). 
https://www.congress.gov/bill/115th-congress/house-bill/1625/
text?format=txt.
---------------------------------------------------------------------------
    I am also pleased to see that CRS has made great progress 
implementing the law's provisions. Crsreports.congress.gov is now 
online and has posted 80 percent of its ``active'' reports.\3\ The 
agency also has committed to posting its very useful In Focus and 
Insights publications on this public website.\4\ CRS and the Library of 
Congress deserve credit for this work.
---------------------------------------------------------------------------
    \3\ A report is deemed ``active'' if its content is current and the 
subject matter is of interest to Congress.
    \4\ Carla Hayden, letter to Rep. Mike Quigley, March 1, 2019. The 
statute requires public release of: ``any written product containing 
research or analysis that is currently available for general 
congressional access on the CRS Congressional Intranet, or that would 
be made available on the CRS Congressional Intranet in the normal 
course of business and does not include material prepared in response 
to Congressional requests for confidential analysis or research.''
---------------------------------------------------------------------------
    However, I would like to call your attention to one aspect of 
implementation that has been less than satisfactory. At present, CRS is 
posting reports only in PDF format. That makes them difficult to read 
and slow to load on mobile devices. Legislators and congressional 
staff, meanwhile, have access to both mobile-friendly HTML copies and 
PDFs through the non-public crs.gov.
    Why the public-facing site offers only PDF copies is unclear. These 
report files are not born as PDFs. Indeed, CRS analysts and experts 
create their reports as Microsoft Word files, which then are converted 
into both HTML and PDF files during the publishing process.
    I and others request the subcommittee to please direct CRS to post 
its reports in HTML or other mobile-friendly formats on 
crsreports.congress.gov. This implementation shortcoming should be 
easily solved.\5\
---------------------------------------------------------------------------
    \5\ The privately created site Everycrsreport.com, which cost less 
than $20,000 to build, has both HTML and PDF copies.
---------------------------------------------------------------------------
    And if I may raise one additional matter, CRS has a large trove of 
what are called ``non-current reports.'' These are reports that have 
been placed in the CRSX archive and made unavailable to Congress except 
upon request of a legislator or legislative staff. CRS' rationale for 
this obscurity has varied. In some cases, the subject of the report is 
not actively being considered by Congress. In other instances, the 
author of the report has retired or otherwise departed from the agency, 
or the report has been superseded by a new report. But many reports are 
locked in CRSX simply because they are more than a few years old.
    To date, CRS has been loath to make these reports available outside 
of the private CRSX archive. When Rep. Quigley asked CRS whether it 
would place these reports online, the Librarian of Congress replied 
that the task was outside the scope of the 2018 Consolidated 
Appropriations Act's requirements.\6\
---------------------------------------------------------------------------
    \6\ Carla Hayden, letter to Rep. Mike Quigley, March 1, 2019. Which 
prompts the question: Can CRS avoid publishing a report publicly 
through a declaration that the report is no longer ``active''?
---------------------------------------------------------------------------
    This is a shame. There are an enormous number of informative 
reports in CRSX that would benefit the public. I would encourage the 
subcommittee to please direct CRS to begin sharing reports from CRSX on 
the publicly available site this year.\7\
---------------------------------------------------------------------------
    \7\ Some of these reports--especially reports published more than a 
decade ago--might only be available in PDF format. Although not ideal, 
access to PDF copies of old CRS reports would be better than no access.
---------------------------------------------------------------------------
    Finally, and on another subject, in the past couple of years CRS 
has stopped releasing its data on CRS employee turnover. Previously, 
they would report these data to Congress in their annual reports. This 
is concerning, as all reports I have received indicate that CRS is 
experiencing higher than average levels of turnover.\8\
---------------------------------------------------------------------------
    \8\ For additional details on CRS turnover and staff morale issues, 
see Kevin R. Kosar, Written testimony on more equitable access to 
Congressional Research Service reports and CRS employee morale, U.S. 
Senate, Committee on Appropriations, Subcommittee on the Legislative 
Branch, April 27, 2018. http://kevinrkosar.com/kosar-written-testimony-
to-CRS-Senate.pdf.
---------------------------------------------------------------------------
    Thank you for your time and consideration. I would be happy to 
answer any questions the subcommittee or its staff may have.

    [This statement was submitted by Kevin R. Kosar, Vice President of 
Policy.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
